<html>
<title> - LEGISLATIVE HEARING ON: H.R. 3936, H.R. 4087, H.R. 4757, H.R. 4758, H.R. 4759, H.R. 4782, H.R. 3715; A DRAFT BILL ENTITLED ``MEDAL OF HONOR LEGACY ACT''; A DRAFT BILL ENTITLED ``LOVE LIVES ON ACT OF 2016''; A DRAFT BILL ENTITLED ``TO AMEND TITLE 38, UNITED STATES CODE, TO IMPROVE THE CONSIDERATION OF EVIDENCE BY BOARD OF VETERANS' APPEALS''; AND, A DRAFT BILL ENTITLED ``TO AMEND TITLE 38, UNITED STATES CODE, TO PAY SPECIAL COMPENSATION TO CERTAIN VETERANS WITH THE LOSS OR LOSS OF USE OF CREATIVE ORGANS''</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]



LEGISLATIVE HEARING ON: H.R. 3936, 4087, 4757, 4758, 4759, 4782, 3715; 
   A DRAFT BILL ENTITLED ``MEDAL OF HONOR LEGACY ACT''; A DRAFT BILL 
  ENTITLED ``LOVE LIVES ON ACT OF 2016''; A DRAFT BILL ENTITLED ``TO 
AMEND TITLE 38, U. S. CODE, TO IMPROVE THE CONSIDERATION OF EVIDENCE BY 
  BOARD OF VETERANS' APPEALS''; AND, A DRAFT BILL ENTITLED ``TO AMEND 
 TITLE 38, U.S. CODE, TO PAY SPECIAL COMPENSATION TO CERTAIN VETERANS 
           WITH THE LOSS OR LOSS OF USE OF CREATIVE ORGANS''

=======================================================================

                                HEARING

                               BEFORE THE

       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

                                 OF THE

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                       WEDNESDAY, APRIL 13, 2016

                               __________

                           Serial No. 114-62

                               __________

       Printed for the use of the Committee on Veterans' Affairs
       
       
       
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        
       


         Available via the World Wide Web: http://www.fdsys.gov
                    
                    
                    
                      U.S. GOVERNMENT PUBLISHING OFFICE                    
25-125 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0c6b7c634c6f797f786469607c226f636122">[email&#160;protected]</a>                   
                    
                    
                    
                    
                    COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

DOUG LAMBORN, Colorado               CORRINE BROWN, Florida, Ranking 
GUS M. BILIRAKIS, Florida, Vice-         Minority Member
    Chairman                         MARK TAKANO, California
DAVID P. ROE, Tennessee              JULIA BROWNLEY, California
DAN BENISHEK, Michigan               DINA TITUS, Nevada
TIM HUELSKAMP, Kansas                RAUL RUIZ, California
MIKE COFFMAN, Colorado               ANN M. KUSTER, New Hampshire
BRAD R. WENSTRUP, Ohio               BETO O'ROURKE, Texas
JACKIE WALORSKI, Indiana             KATHLEEN RICE, New York
RALPH ABRAHAM, Louisiana             TIMOTHY J. WALZ, Minnesota
LEE ZELDIN, New York                 JERRY McNERNEY, California
RYAN COSTELLO, Pennsylvania
AMATA COLEMAN RADEWAGEN, American 
    Samoa
MIKE BOST, Illinois
                       Jon Towers, Staff Director
                Don Phillips, Democratic Staff Director

       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

                   RALPH ABRAHAM, Louisiana, Chairman

DOUG LAMBORN, Colorado               DINA TITUS, Nevada, Ranking Member
LEE ZELDIN, New York                 JULIA BROWNLEY, California
RYAN COSTELLO, Pennsylvania          RAUL RUIZ, California
MIKE BOST, Illinois

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.
                            C O N T E N T S

                              ----------                              

                       Wednesday, April 13, 2016

                                                                   Page

Legislative Hearing On: H.R. 3936, H.R. 4087, H.R. 4757, H.R. 
  4758, H.R. 4759, H.R. 4782, H.R. 3715; A Draft Bill Entitled 
  ``Medal Of Honor Legacy Act''; A Draft Bill Entitled ``Love 
  Lives On Act Of 2016''; A Draft Bill Entitled ``To Amend Title 
  38, United States Code, To Improve The Consideration Of 
  Evidence By Board Of Veterans' Appeals''; And, A Draft Bill 
  Entitled ``To Amend Title 38, United States Code, To Pay 
  Special Compensation To Certain Veterans With The Loss Or Loss 
  Of Use Of Creative Organs''....................................     1

                           OPENING STATEMENTS

Honorable Ralph Abraham, Chairman................................     1
Honorable Dina Titus, Ranking Member.............................     2
Honorable Jeff Miller, Full Committee Chairman...................     3
Honorable Corrine Brown, Full Committee Ranking Member...........     5
    Prepared Statement...........................................    35
Honorable Ryan Costello, Member..................................     6
Honorable Mia Love, U.S. House of Representatives, 4th 
  Congressional District; Utah...................................     8

                               WITNESSES

Mr. David R. McLenachen, Deputy Under Secretary for Disability 
  Assistance.....................................................     9
    Prepared Statement...........................................    35

        Accompanied by:

    Mr. Matt Sullivan, Deputy Under Secretary of Finance and 
        Planning and CFO, National Cemetery Administration, U.S. 
        Department of Veterans Affairs

Mr. Patrick K. Hallinan, Executive Director, Army National 
  Military Cemeteries, Department of the Army....................    11
    Prepared Statement...........................................    43

Mr. Carl Blake, Associate Executive Director for Government 
  Relations, Paralyzed Veterans of America.......................    21
    Prepared Statement...........................................    44

Mr. Aleks Morosky, Deputy Director, National Legislative Service, 
  Veterans of Foreign Wars of the United States..................    23
    Prepared Statement...........................................    47

Mr. Paul R. Varela, Assistant National Legislative Director, 
  Disabled American Veterans.....................................    25
    Prepared Statement...........................................    51

Ms. Elizabeth Davis, Advocate for Survivors' Benefits............    26
    Prepared Statement...........................................    54

Mr. Edward G. Lilley, Team Leader for Health Policy, National 
  Veterans Affairs and Rehabilitation Division, The American 
  Legion.........................................................    28
    Prepared Statement...........................................    56

 
  LEGISLATIVE HEARING ON: H.R. 3936, H.R. 4087, H.R. 4757, H.R. 4758, 
H.R. 4759, H.R. 4782, H.R. 3715; A DRAFT BILL ENTITLED ``MEDAL OF HONOR 
 LEGACY ACT''; A DRAFT BILL ENTITLED ``LOVE LIVES ON ACT OF 2016''; A 
DRAFT BILL ENTITLED ``TO AMEND TITLE 38, UNITED STATES CODE, TO IMPROVE 
 THE CONSIDERATION OF EVIDENCE BY BOARD OF VETERANS' APPEALS''; AND, A 
  DRAFT BILL ENTITLED ``TO AMEND TITLE 38, UNITED STATES CODE, TO PAY 
 SPECIAL COMPENSATION TO CERTAIN VETERANS WITH THE LOSS OR LOSS OF USE 
                          OF CREATIVE ORGANS''

                              ----------                              


                       Wednesday, April 13, 2016

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Disability Assistance
                                      and Memorial Affairs,
                                                   Washington, D.C.
    The Committee met, pursuant to notice, at 10:07 a.m., in 
Room 334, Cannon House Office Building, Hon. Ralph Abraham 
[Chairman of the Committee] presiding.
    Present: Representatives Abraham, Titus, Lamborn, Brownley, 
Zeldin, Ruiz, Costello, and Bost.
    Also Present: Representatives Miller, and Brown.

          OPENING STATEMENT OF RALPH ABRAHAM, CHAIRMAN

    Mr. Abraham. Good morning. This hearing will come to order.
    Before we begin, I would like to ask unanimous consent that 
Chairman Miller and Ranking Member Brown be allowed to sit at 
the dias, speaking on their bills and ask questions.
    Hearing no objections, so ordered.
    I want to thank you all for joining us today to discuss 
legislation pending before the Subcommittees. The eleven bills 
on the agenda address important issues for veterans and their 
families, including providing additional compensation benefits, 
honoring deceased veterans, and finding new ways to improving 
claims and appeals processing.
    I would like to focus my remarks on the bill I am proud to 
have introduced, H.R. 4782, the Veterans' Compensation Cost-of-
Living Adjustment Act of 2016. I would also like to thank my 
colleague Ranking Member Titus for being an original cosponsor.
    H.R. 4782 would authorize a cost-of-living increase as of 
December 1st, 2016 for veterans and their families who receive 
VA disability compensation or other benefits. Veterans earn 
these benefits as a result of their service to our Nation. They 
and their families depend on these payments to help make ends 
meet.
    The amount of the increase would be based on the Consumer 
Price Index, which is also used to determine the cost-of-living 
adjustment for Social Security beneficiaries.
    Last year, veterans and Social Security beneficiaries did 
not receive a COLA, but cost of living may go up this year. 
Therefore, it is absolutely essential that we pass H.R. 4782 to 
ensure that veterans' benefits keep up with the rate of 
inflation.
    With that said, I look forward to productive and meaningful 
discussion on each of the eleven pieces of legislation before 
us today. I appreciate the work of my colleagues who introduced 
these bills, and I also want to express my gratitude to the 
witnesses for being here to discuss them with us.
    I will now yield to my colleague Ranking Member Titus for 
any opening statement she may have.

        OPENING STATEMENT OF DINA TITUS, RANKING MEMBER

    Ms. Titus. Thank you very much, Mr. Chairman, and thank you 
for holding this hearing today, so we can discuss some of this 
important legislation that affects our veterans.
    I want to thank you also for including my bill, the Medal 
of Honor Legacy Act.
    We have heard estimates from Arlington National Cemetery 
that they are going to be at capacity within two decades, so we 
need to have a plan for what we are going to do there at the 
cemetery, and we certainly need to include in that plan our 
Medal of Honor recipients.
    In the history of our country, we have awarded more than 
3,400 Medal of Honors since the decoration's creation 155 years 
ago. Three hundred and sixty one of these recipients are buried 
at Arlington and there are 77 living recipients still with us 
today. So the purpose of this legislation would be to ensure 
that they have a place at Arlington for these very few, very 
special servicemen and women who have received this highest 
honor.
    We worked with the Army and VSOs in guiding our language, 
and we thank them for their help, and we have tried to redraft 
the bill so that it includes their suggestions. I understand, 
though, that they would like to lower the number of places that 
we are going to set aside in the bill and to use this as an 
opportunity to plan future uses of Arlington. I think that is 
all fine and planning is good, but I don't want that to become 
an excuse for not getting it done. Too often when we say we are 
going to do a study, that means we are going to put it on the 
shelf, and we don't know when anything will happen. So we don't 
want that to be the case here.
    I also am very supportive of the policy to help veterans 
who have lost the use of a reproductive organ. These are 
veterans who have put everything on the line for the country 
and now IEDs have made the injury more prevalent. So we want to 
do all we can to help them start a family. I don't want us to 
do it kind of in a halfway manner, though. If we are going to 
do it, we should do it right, and we should do it so it covers 
the problem and provides a benefit that really does make a 
difference and can be taken advantage of to address this 
challenge.
    Also, I would just like to point out that since there is 
not a lot of discussion between the two sides prior to the 
legislative meetings, two issues that I hope that we will 
consider in the future, one that I have talked about for 
several years, and that is how to address the appeals process 
to get ahead of it, so that we don't have the serious backlog 
problem that we have now with just the application for 
benefits. I know that the VSOs are working on this, the VA has 
said it is a priority. I hope that we will have a real 
substantive hearing on some of the ways to address that 
legislatively.
    And finally, once again, and I will say this as long as I 
am here, I am disappointed that the legislation I requested 
that we would consider today, H.R. 1598, which is the Veterans' 
Spouses Equal Treatment Act, was not included. This is simply 
to bring the VA in line with the Supreme Court decision, so 
that we recognize spouses of all genders, that we don't say a 
spouse has to be a member of the opposite sex. This is just 
outdated legislation or language in legislation that needs to 
be updated. It doesn't extend any kind of rights, it doesn't 
impose on states' rights, it doesn't say you support gay 
marriage, it simply brings the language up to date.
    So I hope that at some point, since there is bipartisan 
support for that, and the VA supports it and VSOs have said 
they support it, that we will consider that legislation.
    And with that, I yield back.
    Mr. Abraham. Thank you, Ms. Titus.
    Chairman Miller, I appreciate you taking time to be here 
today. You are now recognized to discuss your bills.

   OPENING STATEMENT OF JEFF MILLER, CHAIRMAN, FULL COMMITTEE

    Mr. Miller. Thank you very much, Mr. Chairman. It is a 
pleasure to be here.
    Ms. Titus, thank you for your hard work on this 
Subcommittee as well.
    As Members already know, our priorities must include 
ensuring that those who have been injured as a result of their 
service are fairly compensated for that injury, and that 
veterans who have passed on receive the honor and the respect 
that they deserve.
    My bill, which was noticed for this hearing as a draft bill 
entitled To Amend Title 38, United States Code, to Pay Special 
Compensation to Certain Veterans with the Loss or Loss of Use 
of Creative Organs, that is introduced as H.R. 4892, would 
ensure that veterans who have suffered a traumatic injury to 
their creative organs would receive appropriate compensation 
for those injuries.
    In addition to regular compensation payments, VA provides a 
special monthly compensation or SMC to service-disabled 
veterans due to circumstances such as the loss of a limb. For 
veterans who have suffered an anatomical loss or loss of use of 
a creative organ as a result of a service-connected disability, 
SMC currently pays approximately $100 a month.
    Although veterans appreciate this benefit, it does not 
adequately compensate the veteran for the unique nature of the 
injury that prevents the ability to have a family. According to 
the Department of Health and Human Services, private adoption 
fees can cost anywhere between $5,000 and $40,000.
    The bill would provide two separate special monthly 
compensation payments or SMC payments of $10,000 each. Veterans 
would be able to use this money however they see fit, and to 
meet the needs of that veteran's specific circumstance.
    For example, a veteran could choose to use this benefit to 
defray adoption fees or to buy a house large enough to take 
care of foster children that they may bring into their home. 
However, a veteran may also choose to use these funds in other 
ways, as is typical for compensation payments.
    If a veteran does decide to use this benefit to raise a 
family, the real winner in fact is the children. Who better to 
teach our Nation's children the important values like 
patriotism and service than the men and women who have served 
in the armed forces.
    As we consider proposals that would provide fair 
compensation for our wounded warriors, it is also important to 
ensure that veterans who have passed away receive the deference 
and respect that they are due.
    But before I discuss my other bills that are on today's 
agenda, I want to comment on VA's opposition to the important 
legislation that I just described.
    According to testimony, VA opposes my bill because it would 
create an inequitable benefit favoring some veterans over 
others. Really? Further, VA argues that the benefit would add 
an undue level of complexity to the claims process.
    Mr. Chairman, I am stunned at best. Once again, we have a 
situation where VA is more inclined to support the status quo 
than to address a real-world issue, the inability to start a 
family because of a service-related injury.
    Further, to argue this would add a level of complexity to 
the claims process is offensive to me. As VA testifies, these 
individuals already get a very minimal amount of compensation 
for a creative organ loss. Would it really be that difficult to 
identify and provide a meaningful benefit to those who have 
lost the biological ability to start a family?
    What I would ask today is the Department go back to the 
drawing board and reconsider its position on this particular 
piece of legislation.
    Mr. Chairman, I have also introduced three other pieces 
that help our Nation to better honor the deceased men and women 
who have sacrificed so much in defense of our freedom.
    One bill, H.R. 4757, would authorize the VA to furnish a 
special headstone or medallion to adorn the graves of those who 
were awarded the Congressional Medal of Honor and who are 
buried in a private cemetery. Currently, the VA does not have 
the authority to do so if the veteran passed away prior to 1990 
and is buried at a private cemetery in a marked grave.
    H.R. 4757 would allow Medal of Honor recipients, some of 
our Nation's most treasured veterans, to receive the 
recognition they deserve by providing a government headstone, 
marker and medallion for privately buried Medal of Honor 
recipients who served on or after April 6th of 1917. This 
ensures that as a Nation, we are appropriately honoring those 
veterans regardless of where they are laid to rest.
    I have also introduced H.R. 4758, which would authorize the 
issuance of the Presidential Memorial Certificate to deceased 
members of the Reserve or Reserve Officers Training Corps who 
are eligible for burial in a national cemetery. A Presidential 
Memorial Certificate is signed by the President and expresses 
the country's gratitude for that individual's service. I hope 
that the families who receive this certificate will understand 
how appreciative we as a Nation are for their loved one's 
service and their sacrifice.
    And finally, I authored H.R. 4759, which would authorize VA 
to pay the burial transportation costs to state or tribal 
veterans' cemeteries. Currently, the law only allows 
transportation costs to a national veterans' cemetery. This 
bill will ensure that families are not financially penalized if 
they choose to have the veteran buried in a state or a tribal 
cemetery.
    And I would ask all of my colleagues to support this 
legislation when it comes up for a vote, and I yield back my 
time.
    Mr. Abraham. Thank you, Chairman Miller.
    Ranking Member Brown, thank you for joining us. You are now 
recognized to discuss your bills.

   OPENING STATEMENT OF CORRINE BROWN, RANKING MEMBER, FULL 
                           COMMITTEE

    Ms. Brown. Thank you, Mr. Chairman, for this opportunity to 
speak on behalf of the important bills under consideration 
today.
    I am particularly pleased that we will be considering the 
bill H.R. 3715, the Final Farewell Act, that is of great 
importance to my constituents. While VA has the authority to 
provide weekend services to veterans and their families, they 
rarely do. This has been a particular challenge for various 
religions and cultures who bury their loved ones on Saturdays.
    Just two weeks ago, I attended a funeral service on a 
Saturday, then had to wait along with the family until Monday 
to bury their loved one because the cemetery would not bury the 
servicemembers on Saturdays. This compound stress from losing a 
loved one and being forced to break with tradition is 
unnecessary.
    My legislation, the Final Farewell Act, will make it easier 
for families with religious and cultural traditions to bury 
their loved ones at a time that works for the family. And I am 
going to include some additional language there, because I want 
to make it clear, it is not just a cultural issue, it is also a 
serious financial burden to have to leave the bodies over to 
Monday, it is an additional cost that the families have to 
incur. Our veterans deserve to have their commonsense 
convenience.
    Thank you for considering H.R. 3715 and the support of this 
commonsense change.
    Another bill I am very proud to have introduced is the 
Loved and Lives On Act.
    And there are ten surviving spouses in the audience. Can 
you just stand up?
    So if it's ten here, you know it's thousands in the 
community. Thank you all for being here today.
    I had the opportunity to host our surviving spouses at a 
roundtable last November. I heard them loud and clear, follow 
the United Kingdom's lead by eliminating the age restriction on 
remarrying.
    What many may not know is that our current law is 
discouraging widowed spouses of our most valiant servicemen 
from remarrying. The U.K. noted that many of these spouses are 
in committed relationships, but refrain from marrying to retain 
their income. The right thing to do is clear, and I hope to 
have my colleagues' support on this matter.
    Lastly, I would like to voice serious concerns for the 
legislation proposed from Chairman Miller that would pay two 
lump sum payments of $10,000 for those who lose their use of a 
creative organ. This legislation is trying to address a health 
issue by offering cash instead of needed timely treatment, and 
I strongly oppose it.
    I believe a better alternative and compromise is the 
language that's been agreed to in a bipartisan manner in the 
agreement struck by the Senate to provide these veterans with 
health care. This language is very similar to language proposed 
last year by Chairman Miller and in concept, I support that.
    Being able to have a family is an important step toward 
healing our veterans and their families. I am committed to find 
a way to make this happen.
    And I want to mention one last thing as I close. This 
Committee passed a bill a long time ago, it is important to 
have institutional memory, that we forbid fertility treatment 
for veterans, female veterans, and I think we need to take a 
look at that, and this is something that we need to rescind, 
because this should be an option for those veterans that want 
this additional service. And the reason why we did it is 
because sometimes these treatments lead to abortion because 
something is wrong with the servicemember. So we need to take a 
look at what we have done from this Committee's standpoint.
    I want to thank you for bringing these bills up and I am 
looking forward to working with them as they move to the Floor.
    I yield back the balance of my time.

    [The prepared statement of Corrine Brown appears in the 
Appendix]

    Mr. Abraham. Thank you, Ranking Member Brown.
    Are there any other Members that would like to speak about 
their bills?
    Representative Costello.

               OPENING STATEMENT OF RYAN COSTELLO

    Mr. Costello. Mr. Chairman, thank you for including my 
legislation today and for the opportunity to speak in support 
of H.R. 3936, The Veteran Engagement Team Act, also known as 
the VET Act.
    This legislation would offer a solution for the veteran who 
needs assistance navigating the VA claims process. That 
solution, bring professionals into the community for our 
veterans to talk face-to-face with a real person who can offer 
them help in realtime. Many veterans, unfortunately, struggle 
to navigate the VA's bureaucracy to submit their disability 
claims and receive the benefits they are due.
    To further complicate the process, our veterans are often 
subject to preventable delays that plague our current system. 
Lost paperwork, a lack of communication, and an extensive 
claims backlog.
    This past summer, a Vietnam veteran asked my office for 
assistance with the VA and his disability claim. He initially 
applied for disability benefits years ago based on medical 
conditions he believed were service-connected, but his request 
was declined. Several months later, he reapplied. While he was 
ultimately approved for some benefits, the process took well 
over a year.
    Soon after in March, 2015, the veteran applied for an 
increased disability rating due to diabetic neuropathy, PTSD 
and Parkinson's, and again in June, 2015 for cancer. After 
contacting my office, my staff discovered that the VA facility 
incorrectly listed the veteran as having filed a cancer claim 
in March, 2015. The VA then informed him they could not process 
the July claim as they already had one from the spring. 
However, this veteran was only diagnosed with the cancer in 
June, proving the claim was grossly misfiled by the VA. 
Thankfully, my office was able to resolve this situation and 
prevent a further delay of the veteran's benefit.
    Sadly, stories like this have become far too common for our 
veterans. They submit their disability claims to never hear of 
them again, while they sit idle in a box for months or even 
years, and sometimes having been misfiled. Clearly, there is a 
claims processing problem.
    In an effort to ensure our veterans' claims are timely 
processed and do not suffer as a result of a growing claims 
backlog, I introduced the VET Act, a three-year pilot program 
that streamlines the process by creating a one-stop shop for 
veterans. The legislation will bring VA employees into the 
community, providing veterans with direct access to physicians, 
claims raters and other personnel to facilitate the completion 
and adjudication of claims. And if the request is not completed 
during the allotted time period, the VA is required to give the 
veteran a clear explanation of the next steps necessary to 
complete the claim.
    That last piece I think is a frustration for many veterans, 
not knowing or having that clear explanation of what they must 
do next in order to fully have the claim completed so that it 
can be processed.
    The VET Act will undoubtedly reduce wait times, 
miscommunication and lost paperwork that plague the system 
today. In addition, this method has been tested and proven 
successful by the American Legion's Veterans Benefits Centers, 
as well as the VA's Claims Clinic at two regional offices. H.R. 
3936 will continue upon the success and ensure veterans across 
the Nation are receiving this one-on-one assistance in their 
communities.
    Importantly, this would be a major step in restoring the 
trust that for many has been broken between the VA and the 
veterans they serve.
    I would encourage all my colleagues, Mr. Chairman, to 
support this bill, and I yield back the remainder of my time.
    Mr. Abraham. Thank you, Mr. Costello.
    It is an honor then to be joined by our colleague Mrs. Love 
from Utah at the witness table today. Thanks for being here. 
You have got a proposal bill, H.R. 4087, the Fair Treatment for 
Families of Veterans Act.
    You are now recognized, Mrs. Love.

                    STATEMENT OF MIA B. LOVE

    Mrs. Love. Thank you, Mr. Chairman. Thank you, Ranking 
Member Titus, and thank you, Ranking Member Brown, and the 
Committee for granting me the opportunity to appear today.
    I am here today to speak on behalf of H.R. 4087, the Fair 
Treatment for Families of Veterans Act. This bipartisan 
legislation currently has 66 cosponsors, including four Members 
of the House Committee on Veterans' Affairs. It has garnered 
the support from both sides of the aisle, because while it is 
simple and straightforward, it is extremely important to 
veterans and their families.
    Presently, Federal law stipulates that recipients of VA 
benefits are not entitled to compensation, dependency or 
indemnity for compensation or pension benefits for the month of 
their death. Instead, the effective date of reduction or 
discontinuance of these benefits is the last day of the month 
before a marriage, remarriage or death occurs. This can be 
problematic for families of beneficiaries who may unexpectedly 
be required to pay living expenses for the last month of a 
loved one's life.
    Compounding the problem, there are instances in which the 
VA has paid benefits in arrears for the months during which an 
individual died, only to require that those benefits be repaid 
after the payment has been made. Unfortunately, those benefits 
have frequently already been used for necessary living 
expenses.
    I know of several families of deceased benefit recipients 
that are required to pay back benefits that were already used. 
One family in my district received a letter six months after a 
relative's death requiring them to repay money that has already 
been paid to them and for the relative's care. A Texas family 
received a letter asking them to pay back money that had been 
received and used for care seven months earlier.
    Families like these have had to take money out of their 
personal accounts, sometimes retirement saving accounts, to 
cover unexpected costs. This has added stress and financial 
hardships to what has already been a challenging situation for 
them.
    The Fair Treatment for Families of Veterans Act would help 
families avoid this problem by changing the date of benefit 
reduction or discontinuance. The effective date would be 
adjusted from the last day of the month before, to the last day 
of the month during which the death, marriage or remarriage of 
the beneficiary occurs.
    In other words, these beneficiaries would be entitled to 
monthly benefits until they die instead of until the month 
before their death. This way veterans and their families will 
experience greater peace of mind and avoid unexpected, 
burdensome expenses.
    Our veterans and the families that support them deserve 
some degree of financial certainty in exchange for the 
sacrifices they have made for our Nation. I believe that this 
is the right thing to do, and I encourage the Committee to 
enthusiastically support this important bipartisan piece of 
legislation.
    Thank you.
    Mr. Abraham. Thank you for bringing this bill forward and 
speaking of it at today's Subcommittee hearing.
    We will forgo a round of questioning for Mrs. Love and any 
questions that any one of us may have, may be submitted for the 
record.
    Now I invite our second panel to the table.
    Thank you for being here. We are joined by David 
McLenachen, the Deputy Under Secretary for Disability 
Assistance of the Veterans Benefits Administration. He is 
accompanied by Mr. Matt Sullivan, the Deputy Under Secretary of 
Finance and Planning and CFO of the National Cemetery 
Administration. Mr. Patrick Hallinan, the Executive Director of 
the Army National Military Cemeteries. In his role, Mr. 
Hallinan is in charged with overseeing Arlington National 
Cemetery. Thanks for all being here.
    Mr. McLenachen, it is good to see you again, and you are 
now recognized for five minutes.

                STATEMENT OF DAVID R. MCLENACHEN

    Mr. McLenachen. Thank you, Mr. Chairman.
    Mr. Chairman, Ranking Member Titus, Members of the 
Subcommittee, thank you for the opportunity to present the 
views of the Department of Veterans Affairs on several bills 
that are pending before the Subcommittee.
    Joining me today is Mr. Matthew Sullivan, Deputy Under 
Secretary for Finance and Planning for the National Cemetery 
Administration.
    Mr. Chairman, VA supports H.R. 4782, the Veterans' 
Compensation Cost-of-Living Adjustment Act of 2016. This draft 
bill would express the Nation's gratitude to service-disabled 
veterans and their surviving spouses and children, and would 
show that the value of their benefits keep pace with inflation.
    VA also supports the general intent of H.R. 4757 to 
identify the grave sites of Medal of Honor recipients buried in 
private cemeteries. However, the extraordinary service that the 
Medal of Honor represents should be memorialized for all 
recipients regardless of their date of death or burial 
location.
    We would be happy to work with the Subcommittee to amend 
the bill to authorize a separate and distinct marker for the 
grave site of any Medal of Honor recipient.
    Although VA supports the proposal on H.R. 4758 to expand 
the eligibility for Presidential Memorial Certificates, we 
strongly recommend amending the bill to allow issuance of 
certificates regardless of the date of death of the 
individuals, and to allow VA to provide eligible next of kin, 
relatives or friends of Reservists and retirees with a 
meaningful symbol of remembrance.
    VA supports the concept contained in H.R. 4759, subject to 
the availability of funds. We especially support expanding the 
transportation allowance to state and tribal cemeteries for the 
unclaimed remains of veterans who die without next of kin, as 
there are no costs associated with this expansion, and it would 
ensure the availability of a dignified burial option for these 
veterans.
    VA has concerns with several of the bills that remain. For 
example, VA does not support H.R. 3715, which would require VA 
to provide interments, funerals, memorial services, and 
ceremonies at national cemeteries during most weekends if 
requested for religious or cultural reasons. This draft bill 
would inadvertently disrupt VA's current flexibility to 
accommodate these very requests. VA already conducts committal 
services and interments on weekend days on a case-by-case 
basis.
    VA does not support H.R. 3936 for the reason being that we 
are currently piloting a program that is similar to the events 
described in this bill. These claims clinics, while successful 
for some of the participating veterans, have not reduced the 
overall processing time for veterans' claims. We have 
determined that event-oriented processing is more costly and 
resource-intensive than VA's traditional claim processing.
    VA likewise does not support H.R. 4087, which would adjust 
the effective date of reductions and discontinuances of VA 
benefits due to marriage, remarriage or death. This amendment 
is ambiguous, would significantly increase VA's accrued 
benefits caseload, and increase mandatory benefit expenditures 
resulting from an additional month of entitlement after a 
beneficiary's death, and it might also complicate VA and the 
Department of Treasury's efforts to meet the requirements of 
the Improper Payments Elimination and Recovery Improvement Act.
    VA cannot support the draft bill to pay lump-sum special 
monthly compensation to veterans with service-connected loss or 
loss of use of creative organs, because the compensation 
program already provides additional compensation for these 
veterans. The lump-sum payments would also be a departure from 
VA's longstanding monthly benefit payment structure and 
inequitable for veterans with other severe disabilities.
    Although VA appreciates the intent of the bill to improve 
consideration of evidence by the Board of Veterans' Appeals, 
which is to expedite appeal processing, we cannot support it as 
written.
    The fiscal year 2017 President's budget observed that 
improvements to the timeliness of appeals processing should be 
achieved through comprehensive reform of the process that is in 
current law. However, this bill seeks to address a single step 
in the current multi-step process, while not addressing 
significant defects in the overall statutory framework that 
currently precludes efficiency in the process as a whole.
    Finally, Mr. Chairman, VA cannot support the draft bill 
that would modify the definition of surviving spouse to permit 
entitlements to VA benefits when a surviving spouse of a 
veteran remarries. The draft bill is overly broad, would be 
very costly, and would overburden VA's survivor benefit 
programs. However, VA does not oppose amending or appealing the 
obsolete provisions in Section 5120.
    Mr. Chairman, this concludes my statement. We are happy to 
entertain any questions that you or the Committee may have.
    Thank you.

    [The prepared statement of David R. McLenachen appears in 
the Appendix]

    Mr. Abraham. Thank you, Mr. McLenachen.
    Mr. Hallinan, you are recognized for five minutes.

                STATEMENT OF PATRICK K. HALLINAN

    Mr. Hallinan. Chairman Abraham, Ranking Member Titus and 
distinguished Members of the Subcommittee, thank you for this 
opportunity to provide the Department of the Army's views on 
the Medal of Honor Legacy Act.
    Arlington National Cemetery is unique and an iconic place 
devoted to those individuals who made a significant life 
commitment of service to the defense of our Nation in the armed 
forces. Arlington Cemetery was originally established as a 
national cemetery for soldiers who die in service of the 
country. Eligibility has changed through time, but always 
honored individuals who made a significant life commitment of 
service.
    These heros served in every war or conflict since the 
founding of our Nation. Arlington National Cemetery maintains 
the honor and dignity of each graveside service while hosting 
approximately four million guests annually. This duality of 
purpose brings the sacrifices of those buried at Arlington 
Cemetery closer to the American people.
    On behalf of the cemetery, the Department of the Army, I 
express our appreciation for the support Congress has provided 
us over the years.
    In May of 1864, Arlington National Cemetery was established 
as one of the first of 12 national cemeteries as a place to 
inter soldiers who die in service of the country. Eligibility 
has significantly expanded over time to include all former 
members of the armed forces whose last period of services 
terminated honorably, as well as their eligible dependents.
    The proposed Medal of Honor Legacy Act legislation as 
drafted, would direct the Secretary of the Army to reserve a 
certain number of burial plots at Arlington National Cemetery 
for individuals who have been awarded the Medal of Honor and 
for other purposes.
    The Army understands the intent of the proposed legislation 
is to honor the recipients of the Medal of Honor. However, the 
legislation as drafted does not address the broader concerns of 
eligibility to preserve the life of the cemetery well into the 
future.
    This bill would reestablish gravesite reservations that 
were eliminated by Congress in December of 2010. Reservation of 
gravesites for one specific group would ultimately exclude 
persons who also went above and beyond in their service to our 
Nation, including those who pay the ultimate sacrifice and die 
in defense of the Nation.
    Currently, there are a total of 3,497 Medal of Honor 
recipients from all conflicts, 77 of those are living 
recipients. At present, there are 409 Medal of Honor recipients 
interred throughout the more than 70 sections of Arlington 
National Cemetery. Burial decisions are ultimately the personal 
preference of the deceased and their family. We should not 
assume they will all choose interment at Arlington National 
Cemetery. Based on past history, we are confident that if 
asked, most living recipients would prefer to be buried among 
the comrades with whom they served.
    The present rate of interment and inurnment, coupled with 
the current inventory of available gravesites and niches, which 
includes the nearly complete Millennium project, but does not 
include the unfunded Southern Expansion project, indicates that 
Arlington National Cemetery will run out of space for first 
interments or inurnments in the mid-2030s. The impact of this 
legislation may result in unavailability of grave sites for 
future servicemembers killed in action.
    The Army understands the general intent of the legislation; 
however, the bill does not address the broader question of how 
long does our Nation want Arlington National Cemetery to remain 
an open and active cemetery. The ability to redefine 
eligibility with the possibility of extending beyond our 
current borders to gain more contiguous space will allow the 
Army to ensure that the cemetery remains available for first 
interments for our Nation's heros well into the future. We must 
take a holistic approach to solve this issue, which will 
require extensive coordination with the military services, our 
national Veterans' Service Organizations, the Advisory 
Committee on Arlington National Cemetery, and the Congress.
    Mr. Chairman, Ranking Member Titus, this concludes my 
testimony. I will gladly respond to any questions that you or 
the Subcommittee Members may have.
    Thank you.

    [The prepared statement of Patrick K. Hallinan appears in 
the Appendix]

    Mr. Abraham. Thank you, Mr. Hallinan.
    I will begin the questioning. Mr. McLenachen, even though 
there was no COLA last year across the Federal Government, 
please explain why it is important for Congress to pass the 
American Heros COLA Act of 2016.
    Mr. McLenachen. Mr. Chairman, one of the things that we 
really have to prevent, both working together, VA and the 
Congress, is to prevent our benefits from losing the value that 
they have to veterans and survivors. And that is really the key 
point for your bill, which is making sure that they have that 
value and continue to increase with the cost of living 
generally. It is a very important bill.
    Mr. Abraham. Back to you, Mr. McLenachen. As you know, SMC 
was originally devised to provide some additional compensation 
to veterans who had suffered the actual loss of limbs in 
service. Since its inception in the 1930s, however, SMC has 
evolved to meet the changing needs of the veterans. For 
example, SMCT was created because of the VA's Special Monthly 
Compensation program did not adequately address the needs of 
the veterans who experienced a severe traumatic brain injury.
    For most veterans who receive SMC, VA provides health care 
such as expensive prosthetics at no cost to the veteran. And 
since the VA does not provide adoption services, this bill 
would instead authorize two lump sums to defray the cost of 
adoption services, if the veteran so chooses. Therefore, we are 
not creating a separate category for veterans, rather we are 
responding to the unique needs of the veterans who rely on the 
VA for their care.
    So I guess the question is, why is the VA opposed to 
assisting veterans who have suffered a catastrophic injury to 
their creative organs?
    Mr. McLenachen. Yes, thank you for the opportunity to 
explain our position.
    We are very sympathetic to the needs of these severely 
disabled veterans and in fact, as I looked at the data before 
the hearing, over the last three fiscal years we have granted 
compensation for about 105,000 veterans for this very 
disability. It is our position that Congress got it right when 
Congress categorized certain severe disabilities in Section 
1114(k). It is our position that all those veterans who have 
those type of disabilities should be treated the same and that 
is our main opposition to this particular bill.
    I understand the concerns regarding in this particular 
instance, individuals who have lost the use or lost creative 
organs due to their service-connect, but there are other 
individuals that are in that category that are also severely 
disabled. For example, a veteran who has completely lost the 
ability to speak. It is VA's position that all these veterans 
with these severe disabilities should be treated the same.
    Mr. Abraham. And we will have some follow-ups on that, if 
that is okay.
    Mr. Sullivan, how would you allow VA to pay the costs of 
transporting deceased veterans to state or tribal cemeteries to 
help veterans receive a dignified and proper burial?
    Mr. Sullivan. Mr. Chairman, they would be eligible to apply 
for the transportation allowance that those that are eligible 
right now to apply for to our national cemeteries. It would be 
a similar process.
    Mr. Abraham. Okay. Mr. McLenachen, one last question. You 
raised a technical concern with H.R. 4087 within your written 
testimony, particularly the potential for survivors to receive 
both the full amount of the veteran's compensation for the 
month in which he or she died, as well as a DIC benefit for 
that same month.
    If an amendment were adopted, it would specify that a 
survivor could only receive either compensation benefits for 
the month of the veteran's death or DIC benefits for that 
month, would the Department be more receptive to that 
legislation?
    Mr. McLenachen. Well, that would be a step in the right 
direction to clarify some of the ambiguity that we identified 
in the bill. So that would be one correction that would be 
helpful.
    I don't think that goes far enough. I think there would be 
other corrections that would be necessary. For example, under 
the bill, VA would still be required to pay a month of 
additional benefits to others. Those payments could go to 
anybody other than the spouse. So the heirs, it could even 
accede to an estate, it could be passed on to others through 
the estate of the veteran.
    So we still have a lot of concerns about that bill.
    Mr. Abraham. Okay. Thank you.
    I now recognize Ranking Member Titus for any questions she 
may have.
    Ms. Titus. Thank you very much, Mr. Chairman.
    I would just ask Mr. McLenachen. You mentioned that this is 
a very important bill, that we bring the benefits up to the 
current rate considering the increase in the CPI. I have been 
sponsoring or cosponsoring this measure for years now and, if 
it is so great that we do it for one year, wouldn't it be 
greater if we just did it for every year automatically like we 
do Social Security, so that we don't have to come back and deal 
with the vagaries of politics in Congress every year?
    Mr. McLenachen. I know that that idea has come up in the 
past, and I know the Department has taken a position on it in 
the past. Although it is not before us here today, I am sure we 
would be happy to provide you our views on that if you ask for 
them.
    Ms. Titus. Okay. You can't just tell me off the top of your 
head, if this is great, that wouldn't be greater?
    Mr. McLenachen. Well, one difficulty that we have with the 
way that the law is structured now is, we come before you every 
year to discuss the new COLA bill for this fiscal year. 
Certainly, we would avoid that problem if there was legislation 
that was entered. Whether the Department would support that 
particular bill is something that we would have to get back to 
you on.
    Ms. Titus. All right. Thank you.
    Mr. Hallinan, you mentioned that the bill that sets aside a 
certain number of plots for our Medal of Honor recipients does 
not address the whole problem of how we plan what is going to 
happen to the cemetery over the next, I don't know, century, so 
let me ask you this. How long do you think it would take you to 
do a study of what we need, how we need to address the fact 
that the cemetery is going to be full or how we expand it, or 
how we have equal eligibility or how all the services and all 
the wars are included? How long will it take you to do that 
study and why don't you get busy doing it now?
    Mr. Hallinan. It is a great question and I appreciate the 
opportunity to respond to it.
    We have already started down this path. We are looking at 
how long can we maintain the full operational integrity of 
Arlington National Cemetery well beyond 2050. We have met with 
some of the national VSO organizations. Our advisory committee 
that reports to the Secretary of the Army has been tasked with 
this issue. So we are actively working the issue.
    But to answer your question directly, I would estimate 
approximately four to five months we should be able to come 
back with a report to this Committee as to what we would think 
would be good recommendations to extend the life of Arlington 
National Cemetery.
    Ms. Titus. Right. Well, that is shorter than I figured, but 
in the meantime, are you opposed to setting aside any plots for 
Medal of Honor winners or just the fact that there are too many 
plots set aside in this legislation?
    If we reduced it to, say, a hundred, would that still be a 
problem for you?
    Mr. Hallinan. It would not be a problem if there were a 
hundred based on the amount that have been interred to date, 
the 409. We have 95,000 plots available at Arlington National 
Cemetery right now, I believe we would have to report back to 
the Subcommittee and back to Congress in time to avert any 
potential problems down the road in the future.
    Our concern is with the actual reservation process since 
Congress did away with reservations. There was a concern 
about--do we reserve a certain section. The feeling is among 
Medal of Honor recipients, most times they want to be buried 
among comrades or even if they have family members interred at 
Arlington National Cemetery previously, how do you accommodate 
their wishes. Our goal is to always work with the families and 
accommodate their wishes.
    So we would not have a problem with a hundred. The bigger 
issue for us, as you pointed out, is the concern about what 
happens after 2030, because the Southern Expansion is unfunded. 
If the Southern Expansion were funded and we were to implement 
operations that would take us to the 2050s to be an open and 
active cemetery.
    And I think it is incumbent on us, we have the 
responsibility and duty to say, does the American people want 
the cemetery at Arlington to close the first interments after 
2050 or 2030?
    Ms. Titus. Okay, that is enough, that is enough.
    I am just saying, out of 95,000, it looks like a hundred is 
not too many to set aside for our Medal of Honor winners.
    Mr. Hallinan. It is not.
    Ms. Titus. So, I mean, despite all this study and all these 
statistics and all this whatever it is you are talking about, I 
don't think that is too many.
    But okay, will you get back to us with that study in four 
or five months? On the record, that is what you think it is 
going to take?
    Mr. Hallinan. Yes.
    Ms. Titus. And we appreciate that.
    I would like to go back then to Mr. McLenachen. You are 
opposed to, as I am, the proposal put forth by Chairman Miller 
with the lump sum, even though I am very supportive of the 
notion of helping our veterans who have lost the ability to 
have a family. Are you more supportive of the proposal that has 
been put forth in the Senate that considers this more as a 
health care issue than a lump sum that can be used for these 
various purposes that the Chairman now is supporting, even 
though originally he was more in line with the Senate bill?
    Mr. McLenachen. I am not familiar with and I don't know 
whether the Department has offered a position on the health 
care bill for the Senate. Our main objection, as I mentioned, 
was basically equity for severely disabled veterans.
    You know, a second piece of that is the bill would have us 
provide these lump-sum benefit payments to this subset of these 
severely disabled veterans. VA generally pays benefits on a 
monthly basis for compensation. So it would be a significant 
change for us to have to start paying lump-sum benefit payments 
and administering a completely different payment process for 
veterans.
    Ms. Titus. I don't believe that Senate bill includes that, 
so maybe it would be more in line with what you support.
    Thank you, Mr. Chairman.
    Mr. Abraham. Thank you, Mrs. Titus.
    Mr. Costello, five minutes, questions?
    Mr. Costello. Yes, thank you.
    Mr. McLenachen, good morning.
    Mr. McLenachen. Good morning.
    Mr. Costello. In reviewing your testimony, and all my 
questions will relate to H.R. 3936, a couple questions. How 
much does a claims clinic cost? Or how much, to use the term, 
those event-based team concepts, which I guess we will call 
claim clinics, how much does one cost?
    Mr. McLenachen. What I would like to do is get back to you 
when we are done with wrapping up our analysis of the pilot 
that we have done, which we started in 2012.
    That is a very good question, because our position is that 
really we don't get the bang for the buck out of the claims 
clinics. We can serve veterans better, we think, through the 
processing that we currently do.
    I don't want to really say too much more than that as far 
as the cost, because we haven't fully analyzed the results of 
the pilot that we have been doing.
    Mr. Costello. When do you expect that you will issue 
analytical documentation on that pilot program?
    Mr. McLenachen. I believe that is expected to be wrapped up 
next month, so we could get back to you then.
    Mr. Costello. So the work product will be issued in a month 
or your--
    Mr. McLenachen. The work product. The analysis of the pilot 
that we conducted since 2012.
    Mr. Costello. Will be forthcoming in the next month or two?
    Mr. McLenachen. Yes.
    Mr. Costello. So you have done sort of a comparative 
analysis, at least, I don't want to say philosophically, but I 
know you don't want to commit to numbers, how do you know what 
the number of claims that can be processed per work hour by an 
employee?
    In other words, you are comparing it to what is in place 
right now, how do you know whether what is in place right now 
is working as efficient as it should be?
    And I will ask a follow-up after.
    Mr. McLenachen. Well, I think, as you know, we have done a 
lot of work over the past few years to become more efficient in 
how we process claims. I think, you know, the idea of the 
claims clinic or such as what is suggested in your bill--
    Mr. Costello. Right.
    Mr. McLenachen [continued]. --you know, it was first raised 
back at a time when we had a very significant backlog of 
disability claims that we were working. We have made a lot of 
progress over the past few years and so we are at the point now 
where the question is, do we devote resources to that type of 
veteran-engagement scenario, which is important, and we are not 
denying that that type of engagement with veterans is very 
important.
    I think our Secretary has made it clear with setting up 
his, you know, Veterans' Experience Office in VA that that is a 
very important role for the Department.
    So we have to just find some balance between the resources 
required to do a claims clinic and the resources required to 
make sure we timely provide benefits to all veterans, and I 
think that is the balance we are looking for.
    Mr. Costello. And it seems to me another consideration 
there is also whether a claims clinic ends up resulting in a 
lower likelihood of appealing that decision. And so, will your 
analysis or what we see forthcoming look at that aspect?
    Because one of the frustrations is that you file a claim, 
it is processed, it is incomplete, and you get bounced back and 
forth. So you are there for a long, long time. Whereas with the 
claims clinic, at least in theory and I am curious to see how 
it works in practice, is by virtue of having everyone there 
available you get a much more comprehensive, immediate 
evaluation, so that you know what is needed and it is right 
there and, if it is not there, then there is a clear 
explanation on what is needed in order to ultimately file a 
complete claim, so that it is not remanded or it is not 
bouncing around.
    And I think even more frustrating is when a claim is filed 
and you don't know until nine months later or some arbitrary 
period of time that it is incomplete. I mean, that is 
maddening. I am not pointing the finger at you specifically.
    So within the analysis of what it costs, it seems to me 
that the ability to file a fully complete claim up-front, even 
if it is more time-consuming for staff or more staff needs to 
be allocated to that versus the traditional way of claims 
processing, may over a period of years actually be more 
efficient. That is a hypothesis.
    And so I hope that what you do provide provides some 
substance, some substantive analysis on that point.
    Mr. McLenachen. I think it is a really good point. If we 
can check to see whether, I guess you would call it our 
customer service really aids in satisfaction for the veteran 
when they are going through the claims process. So I will go 
back and check and see if that is an element that we are 
looking at in the analysis.
    Mr. Costello. My final point, I know I am running out of 
time--oh, I am out of time.
    Mr. Abraham. Go ahead, sir.
    Mr. Costello. The VA press releases relative to the claims 
clinics indicate that they were a, quote, ``great success,'' 
and that, quote, ``attendance has greatly increased.'' And so 
what I glean or gather from that is that they are successful 
and that they do help individual veterans.
    Your testimony seems to suggest, and so I am asking for you 
to sort of provide some commentary, your analysis seems to 
suggest that it is not the preferred method or at least you 
have some concerns about seeing it expanded. So I am asking you 
to reconcile that what I view as a little bit of a disparity.
    Mr. McLenachen. Without a doubt, I think the veterans that 
have participated in the claims clinics found it to be a good 
experience. So we are not denying that. I think the question 
is, though, how much resources do you put into something that 
provides a few veterans a better experience versus processing 
claims in a timely manner for all veterans. And that is the 
balance I was mentioning.
    So I don't think the Department is taking the position that 
there shouldn't be any claims clinics or that your bill is a 
bad idea, it is just doing the analysis to figure out, well, 
what is the best use of the resources that we have, that have 
been given to us, and then determining what is the future of 
these type of engagements.
    Mr. Costello. And then I will conclude, I would also be 
curious on what the satisfaction level is of those who go 
through the claims clinic process, you know, 70-percent 
favorable, 80-percent favorable. You know, if you go to your 
local VA hospital, they get very high satisfactory rates. 
Versus the satisfaction rate of those who go through the 
traditional claims process. That seems to me to be a very 
relevant consideration moving forward.
    Thank you for your testimony and answering my questions.
    I will yield back. Thank you, Mr. Chairman.
    Mr. Abraham. Thank you, Mr. Costello.
    Ms. Brownley?
    Ms. Brownley. Thank you, Mr. Chairman.
    I just wanted to ask a few questions around Mr. Miller's 
bills with regards to reproductive assistance for service-
connected disabled veterans. And, Mr. McLenachen, I think you 
said earlier that one of your objections is that all veterans 
should be treated the same; is that correct?
    Mr. McLenachen. Within that category of special monthly 
compensation, yes.
    Ms. Brownley. Okay. Well, you know, my concern really 
related to this is I agree that every veteran should be treated 
the same, but not with regards to the up-front cost, but with 
regards to the outcomes, which in this case is having children, 
creating a family, that the outcomes should be the same, not 
the investment up-front to get to that end. And so that 
certainly is a concern certainly that I have.
    And I also wanted to ask you with regards to, I know the 
Department of Defense provides these services to our military 
men and women. And obviously they serve in our military, they 
leave the military, and then suddenly they receive their 
benefits from the VA and they are not similar at all. In fact, 
right now they are very, very different, one does and one 
doesn't.
    So I think Mr. Miller's bill in terms of payment is a step 
in the right direction, but I think we need to go further in 
terms of making sure that we have equal outcomes with regards 
to our men and women who have served, who are disabled, who 
want to have a family.
    I also, with regards to the funding, and maybe you can 
comment, but with regards to the lump-sum payments of two 
$10,000 payments, if the VA was going to pursue this, do you 
think that that cost is or that payment is enough to cover the 
cost?
    Mr. McLenachen. Well, I don't have an opinion on whether 
the payment of this particular lump-sum benefit serves the 
purpose that Chairman Miller had in mind. You know, I did 
mention that approximately 106,000 grants over the last three 
fiscal years is what we would be looking at here.
    And unfortunately, if you are asking about costs, you know, 
I apologize for not having the costs for some of these bills 
available for the hearing, we are going to follow-up as soon as 
possible with a separate views letter on the costs. But roughly 
I just wanted to give you an idea of those, that is about 
106,000, thirty some thousand a year that these benefits would 
be going.
    One thing that the Committee could look at is, rather than 
lump sums, whether there is some other fit within the current 
scheme of special monthly compensation that might be more 
appropriate. There are higher levels of special monthly 
compensation.
    Ms. Brownley. Well, again, I would be looking in terms of 
equity, in terms of outcome.
    It is my understanding that if one chooses to pursue IVF 
treatments, that that can cost approximately $12,500 per 
treatment, sometimes it is going to take two, three, four, five 
times is typical. If there is sperm extraction, that can cost 
2,500 to $3,000. So I think, you know, to get to that outcome, 
it is going to require more.
    The other question I just wanted to ask is that in your 
testimony you stated that a potential change that could be 
helpful for surviving spouses in lieu of the Love Lives On Act 
would be amending or eliminating 38 U.S.C. 5120. However, I am 
having a hard time understanding how that would help surviving 
spouses who are interested in remarrying and retaining their 
pension benefits.
    Mr. McLenachen. Thank you for that question, because we 
didn't intend a misunderstanding there.
    That would not be a helpful amendment or repeal. Simply our 
position is that that is an obsolete provision that Congress 
should repeal. It has to do with postal workers reporting 
spouses that have remarried to the department. It is clearly an 
obsolete provision and we have no objection to it being 
repealed.
    Ms. Brownley. Thank you.
    I yield back.
    Mr. Abraham. Thank you, Ms. Brownley.
    Dr. Ruiz?
    Mr. Ruiz. Thank you, Dr. Abraham. My questions have been 
asked, so I have no further questions.
    Mr. Abraham. Okay. Well, I am going to open a second round 
of questions just real quick, because there are a couple things 
I want to get answered here.
    This goes back to you, Mr. McLenachen. Why is the 
Department opposing to paying DIC benefits to a surviving 
spouse who remarries prior to the age of 57?
    Mr. McLenachen. So, Mr. Chairman, let me begin with this, 
that, you know, historically, going back a long time, the 
purpose of some of our survivor benefit programs is to take 
care of spouses who have lost the support of their spouse and 
our programs have been very effective for that. I have 
administered those programs for about the last five years now; 
we take it very seriously.
    It would be a very substantial change given the current 
law, the current scheme that is in the law, and the exceptions 
that are provided, and those exceptions are, you know, if a 
spouse reaches the age of 57, that remarriage is not a bar. 
Also, if at any time a remarriage is terminated or annulled, it 
becomes void, automatically the spouse becomes eligible again 
for DIC. So Congress constructed the current statutory 
framework to ensure that spouses do have the support they need 
if they do not remarry.
    This would be a dramatic shift away from that policy, and 
it would be an expensive change in policy, as well as burdening 
our current survivor benefit programs, which are very important 
that we process those quickly and get them to the spouses that 
need them.
    Mr. Abraham. All right. Thank you.
    Mr. Hallinan, how would reserving a thousand grave sites, 
or even a hundred, for recipients of the Medal of Honor impact 
burial availability at Arlington National Cemetery for 
servicemembers who are killed in action?
    Mr. Hallinan. Mr. Chairman, it wouldn't have no immediate 
impact. We view the intent of this legislation is to protect 
those plots ongoing into the future so there is an 
availability. It would have no immediate impact. Our concern, 
as I raised in my testimony, is the broader issue of more 
holistic approach as to keeping Arlington open and active in 
the out years.
    Mr. Abraham. Okay.
    Mr. Sullivan, under what circumstances does the Department 
currently provide committal services on weekends?
    Mr. Sullivan. Mr. Chairman, as a matter of policy, we 
provide commitments or interments on weekends for extraordinary 
reasons. Those could include, potentially, cultural or 
religious preferences. We do also provide weekend interments 
for servicemembers killed in action. And as a matter of policy, 
we do not go more than 48 hours without providing burial 
services. So on three-day holiday weekends, we will ensure that 
we provide burial services on one of those weekend days.
    Mr. Abraham. Thank you. Ms. Titus?
    Ms. Titus. Thank you very much.
    I would just like to go back to the possibility of 
remarrying for surviving spouses. And I know they stood up 
earlier, but we didn't really give them their due. They made a 
real effort to come here today, and we often talk about the 
veteran's family and the sacrifices that they make, and how 
extreme their sacrifices are, as well as those made by the 
veteran themself, and I would just like to take a minute to say 
again thank you all for your courage and for coming here to 
discuss what I think is a very important issue. And you heard 
the VA say we need to get rid of things that are antiquated. I 
certainly think this is antiquated too. I mean look at the 
veterans who are making the ultimate sacrifice, and you see how 
very young so many of them are, the majority, and so thank you 
again for coming.
    I just wonder if the VA would be supportive if resources 
were provided to cover these benefits, and also if you have 
looked at how the UK did it to see if there are any kind of 
parallels or why it would be so difficult for us to accommodate 
this when they were able to do that? Mr. McLenachen, could you 
address that?
    Mr. McLenachen. Yes, Ranking Member Titus, I think you are 
aware that we are always interested in improving our benefit 
programs, and this is no exception. We are always looking for 
ways to improve the DIC Program, the survivors' pension 
program, burial benefit--monetary burial benefits, so we are 
not opposed at looking at ways to improve our program. So, I 
hope, you know, that addresses your question, that if there was 
funding available for a particular program improvement, I am 
sure the Department would take that into consideration in its 
views for a bill.
    Ms. Titus. I think we should look at how it has been done 
in other places too, because I think that might provide some 
guidance or some encouragement that if they can do it, we can 
do it too. So let's look at that.
    Then one last thing, I just can't resist mentioning this. 
You said we should repeal--you mentioned a certain provision we 
should repeal it because that language is really antiquated. 
And I think the VA would agree that we need to repeal the 
language, that it is equally antiquated, that refers to a 
spouse as a member of the opposite sex, instead of realizing 
that this is not our grandfather's military or VA anymore, and 
that is an antiquated concept, not just in society, but in law, 
and by the Supreme Court.
    Mr. McLenachen. I believe that the Department has expressed 
its views in support of that bill in the past.
    Ms. Titus. Thank you very much. Thank you, Mr. Chairman.
    Mr. Abraham. Thank you, Ms. Titus. Ms. Brownley?
    Ms. Brownley. I don't have any more questions, except I 
just would like to also, as Ms. Titus did, say thank you to the 
spouses that are here in the audience, and, you know, for their 
commitment, and their courage and strength to be here with us 
all today. And I think that it is frustrating, I think, to hear 
from the VA, quite frankly, that the problem, you know, with 
the Love Lives On Act is that it is just too cumbersome to 
really handle, that we should have an attitude of ``This makes 
sense, let's see how we can move towards this goal and let us 
know how much it is going to cost so that we can wrestle with 
that information and be able to assess our priorities, 
understanding that we can't pay for everything, but let us make 
those judgments and move forward.''
    I yield back.
    Mr. Abraham. Thank you, Ms. Brownley.
    Thanks again for the panel, showing up. If there are no 
other questions, you are excused.
    I now recognize our final panel of witnesses.
    We have today Mr. Carl Blake, the Associate Executive 
Director of Government Relations for the Paralyzed Veterans of 
America; Mr. Aleks Morosky, the Deputy Director of the National 
Legislative Services at the Veterans of Foreign Wars of the 
United States; Mr. Paul R. Varela, the Assistant National 
Legislative Director for Disabled American Veterans; Ms. 
Elizabeth Davis, who will discuss her experience with 
survivors' benefits; and Mr. Edward G. Lilley, the Team Leader 
for Health Policy of the National Veterans Affairs and 
Rehabilitation Division at the American Legion.
    Again, thank you for being here, and for your hard work for 
the advocacy of our veteran heroes. Mr. Blake, we will begin 
with you. You are recognized for five minutes, sir.

                    STATEMENT OF CARL BLAKE

    Mr. Blake. Thank you, Mr. Chairman, Chairman Abraham, and 
Ranking Member Titus, on behalf of Paralyzed Veterans of 
America I would like to thank you for the opportunity to 
testify today. You have my full written statement for the 
record, so I will limit my comments to the one bill on the 
agenda that has the greatest impact on PVA members.
    Since 2001, more than 1,400 servicemembers have suffered 
specifically a genitourinary injury. Over that same time 
thousands of veterans have suffered catastrophic TBI and spinal 
cord injury that have also precluded their ability to have 
children naturally. Unfortunately, the VA is limited, and in 
some cases prohibited, from providing health and financial 
services that fully meet the needs of these veterans. When a 
veteran has a loss of reproductive ability due to a service-
related injury, they bear the total cost to provide for their 
family and to create a family. It is often the case that 
veterans cannot afford these services and are not able to 
receive medical treatment necessary for them to conceive 
children. For many veterans, procreative services have been 
secured in the private sector at great personal and financial 
cost.
    Let me say that PVA does support H.R. 4892, as introduced, 
that would pay special compensation to certain veterans with 
the loss or loss of use of creative organs. As stated, this 
bill would provide up to a total benefit of $20,000.
    Let me also say that we sincerely appreciate the work of 
both this Subcommittee staff, and the Health Subcommittee 
staff, to find a workable solution to what is the real problem. 
But let me be clear: the legislation that was introduced serves 
as a means to an end, but it is not the right means to the 
right end. We believe there are two significant problems that 
remain with this bill, even if it is enacted. First and 
foremost we believe that reproductive services should 
absolutely be part of the medical benefits package of the 
Department of Veterans Affairs. If this country is willing to 
send young men and women into harm's way, who will suffer 
grievous injuries, then it is our responsibility to make them 
whole again. If that means losing the ability to have children, 
then it is incumbent upon this country to do what is necessary 
to restore that possibility. The proposed legislation seems to 
provide a way to get to that point, but it is working around 
what the actual issue is.
    The second flaw that we see with this legislation is the 
value of the benefit and the inequity it creates between men 
and women veterans. While the benefit seemingly affords 
catastrophically disabled veterans, most of whom are men, the 
opportunity to procure reproductive services, in particular 
IVF, which is the hot button issue, it does not address the 
financial burden for women who suffer a similar grievous 
injury. IVF on average costs about $10,000 for one round of 
treatment. So this bill would arguably provide for a couple of 
rounds of that. That would benefit primarily men, who usually 
use that as a service option outside of the VA because it is 
not available if they choose to have children with their 
spouse.
    It is important to note that while the average cost of one 
treatment of course of IVF is approximately 10,000, the average 
cost of a domestic single child adoption ranges anywhere from 
$15,000 to $40,000. Additionally, the cost of gestational 
surrogacy can range anywhere from $60,000 to $120,000. And 
those are the options that most often a woman veteran, with a 
catastrophic injury that precludes their ability to have 
children, has to rely upon. And so while this bill provides a 
meaningful step to afford the opportunity for these types of 
services, it doesn't come close to providing the option for 
women veterans who often experience this. I know the 
Subcommittee recognizes this and this is a challenge, but it is 
something, I think, that needs to be considered if this bill is 
going to be moved forward.
    Again, let me reiterate that our priority is that 
reproductive services should be made a part of the medical 
benefits package. That is what is part of making whole the 
veteran who has sacrificed so much. There is not any other, 
that I am aware of, particular injury that a servicemember can 
suffer while in service to this country that the VA doesn't 
both compensate and provide health care services in some 
setting to offset their loss. I recognize that this is a 
complicated issue. This is not a complicated issue for PVA and 
its members. We know what the right thing is to do; we hope 
Congress will see what the right thing is and act upon that as 
well.
    Thank you, Mr. Chairman. I would be happy to answer any 
questions that you have.

    [The prepared statement of Carl Blake appears in the 
Appendix]

    Mr. Abraham. Thank you, Mr. Blake.
    Mr. Morosky, you are recognized for five minutes.

                   STATEMENT OF ALEKS MOROSKY

    Mr. Morosky. Thank you, Mr. Chairman, Ranking Member Titus, 
and Members of the Subcommittee, on behalf of the Veterans of 
Foreign Wars of the United States, I would like to thank you 
for the opportunity to offer our thoughts on today's pending 
legislation. The bills we are discussing today are intended to 
improve many of the benefits that veterans need and deserve, 
and we thank you for bringing them forward.
    Mr. Chairman, the VFW supports the Final Farewell Act, 
which would allow VA to permit weekend burials at national 
cemeteries when requested by the veteran's family for religious 
or cultural reasons. We believe this is a perfectly reasonable 
accommodation.
    The VFW supports H.R. 3936, the VET Act, which would 
establish a three-year pilot program to carry out veteran 
engagement team events at ten locations nationwide, to 
adjudicate veterans' disability claims on the spot. Our VFW 
service officers have witnessed similar claims clinics already 
being held in select locations and have reported on how 
successful they can be. In one extreme case, a homeless female 
veteran from Winston-Salem, North Carolina, whose claim was 
stalled in the local appeal process, was able to produce the 
piece of evidence needed to grant, resulting in a retroactive 
payment of over $100,000. Our only suggestion for the bill 
would be to also hold the events on weekends, as well as normal 
business hours, as many veterans who work full-time would 
likely be unable to attend during the work week.
    The VFW supports the Fair Treatment for Families of 
Veterans Act, which would grant payments through the end of the 
month when VA benefit is discontinued due to death or marriage. 
We believe this is the right thing to do, so as not to burden 
grieving families with unnecessary debt due to unforseen 
overpayments.
    VFW supports H.R. 4757, requiring VA to furnish to the 
survivors of any deceased Medal of Honor recipient a headstone, 
marker, or medallion signifying that veteran's status as a 
Medal of Honor recipient. VFW fully supports this as the final 
resting places of those who receive our Nation's highest award 
for valor should be granted special recognition.
    The VFW also supports H.R. 4758, which would authorize the 
award of the Presidential Memorial Certificate to members of 
the Guard and Reserve, as well as ROTC candidates who die in 
the line of duty.
    Likewise, we support H.R. 4759, which authorizes VA to 
cover transportation costs for veterans interred in state and 
tribal cemeteries similar to veterans interred at VA national 
cemeteries.
    We support the Veterans' COLA Act of 2016, which increases 
VA compensation and other benefits, providing cost of living 
adjustment beginning December 1 of this year; however, we 
continue to oppose the rounding down of the COLA increase as we 
believe this is a money saving device that comes at the expense 
of veterans and their survivors.
    The VFW supports the draft bill to grant two payments of 
$10,000 as special compensation to veterans who have lost or 
lost the use of their reproductive organs as a result of their 
military service. Due to widespread use of improvised explosive 
devices in the wars in Iraq and Afghanistan, both male and 
female servicemembers have suffered from spinal cord and 
reproductive injuries. Many of these veterans hope to one day 
start families, but their injuries prevent them from 
conceiving. The funds provided by this bill could be used for 
adoption or other expenses. And we see this bill as an 
excellent complement to H.R. 2257 and H.R. 3365, which would 
expand VA fertility treatment options for veterans who have 
suffered similar injuries.
    The VFW supports the draft bill to improve the 
consideration of evidence by the Board of Veterans Appeals. 
Under this bill, additional evidence received after the 
submission of the Form 9 would be subject to initial review by 
the Board by default. Veterans may still elect to have evidence 
reviewed by the AOJ. This is important, as some veterans may 
feel confident that the additional evidence they are submitting 
will allow the AOJ to grant their claims in full without the 
need to wait for their appeals to reach the Board.
    The VFW further supports the provision of the bill that 
would require additional evidence to be reviewed by the AOJ 
within 180 days when the veteran makes that election. We also 
support the intent of requiring the AOJ to certify the appeal 
within 180 days after the review is completed, but would 
suggest that that timeframe be shortened to, perhaps, 60 days. 
In our view, one of the logjams in the appeal process is that 
the AOJs take far too long to certify appeals once their work 
is completed.
    Lastly, we suggest a minor technical change to subsection 
(a)(2)(b) of Section 1, by inserting at the beginning ``If such 
review does not result in a fully favorable decision.''
    The VFW supports the draft bill to reserve a thousand 
burial plots at Arlington National Cemetery for individuals who 
have been awarded the Medal of Honor. The 77 living Medal of 
Honor recipients and those who may be awarded our Nation's 
highest award for valor in the future should be granted a final 
resting place in our Nation's most hallowed burial ground.
    And finally, the VFW supports the Love Lives On Act, which 
would allow surviving spouses who remarry to continue receiving 
VA survivor benefits. We believe that surviving spouses, many 
of whom are young, should not have to endure a life of 
loneliness just so they can continue to receive the benefits 
granted to them through the death of their spouses.
    Mr. Chairman, this concludes my statement, and I am happy 
to answer any questions you may have.

    [The prepared statement of Aleks Morosky appears in the 
Appendix]

    Mr. Abraham. Thank you, Mr. Morosky.
    Mr. Varela, five minutes, sir.

                  STATEMENT OF PAUL R. VARELA

    Mr. Varela. Dr. Abraham, Ranking Member Titus, and Members 
of the Subcommittee, good morning. On behalf of DAV, thank you 
for the opportunity to discuss the merits of the bills before 
us today.
    I will focus my comments this morning on two pieces of 
pending legislation and two bills in draft form that are of 
particular interest to our organization. First, H.R. 3936, the 
Veteran Engagement Teams Act, or VET Act. This bill would 
require VA's Secretary to carry out a three-year pilot program 
facilitating vet events in order to complete on-site processing 
of claims for disability compensation and pension. DAV supports 
the VET Act in accordance with our national resolution 001, 
that calls for enhanced outreach to ensure that all wounded, 
ill, and injured veterans receive all benefits they have 
earned. We are pleased to support this bill, and look forward 
to working together towards its enactment.
    Second, H.R. 4782, the Veterans' Compensation Cost-of-
Living Adjustment, COLA Act of 2016. This bill would increase 
the rates of disability compensation, clothing allowance, and 
dependency indemnity compensation, effective on December 1st, 
2016. Consistent with DAV resolution 013, which calls on 
Congress to support legislation to provide a realistic increase 
in disability compensation, we support this bill.
    While Congress has customarily determined a COLA in parity 
with Social Security recipients, it is important to note there 
have been several years in which Social Security recipients did 
not receive a COLA, as was the case this year. Likewise, 
beneficiaries in receipt of VA compensation and survivor 
benefits did not receive a COLA.
    Furthermore, DAV believes Congress should consider a better 
formula to compensate service-connected veterans, their 
survivors, and dependents, for wounds, injuries, and illnesses 
sustained during military service. DAV members passed 
resolution number 059, which calls on Congress to support the 
enactment of legislation to provide a realistic increase in VA 
compensation rates to bring the standard of living of disabled 
veterans in line with that which they would have otherwise 
enjoyed had they not suffered their service-connected 
disabilities.
    DAV has always supported legislation that provides veterans 
with a COLA. DAV is adamantly opposed to the practice of 
rounding down COLAs to the nearest whole dollar amount, and we 
oppose the round-down feature in this bill based on DAV 
resolution 017.
    Third, the discussion draft for special monthly 
compensation, SMCU. If enacted, the legislation would pay SMCU 
to veterans entitled to receive SMCK due to the loss of or loss 
of use of creative organs. Seemingly, this bill contemplates 
one possible option to provide some assistance in the form of 
compensation to overcome reproductive challenges associated 
with service-connected disabilities. DAV does not view this 
proposal as a comprehensive measure to solve this problem, as 
these veterans may require additional services beyond what the 
two $10,000 payments would cover. More must be done to ensure 
that veterans stricken with wounds, illnesses, and injuries 
that impede upon their natural ability to procreate receive to 
the maximum extent possible the full complement of services and 
benefits required to achieve a desired outcome. DAV does not 
have a resolution from its members pertaining to lump-sum 
payments for the loss or loss of use of creative organs, but 
would not oppose passage of this legislation. However, if 
legislation were to be enacted to provide for these lump-sum 
payments, it should not be used to supplement or offset other 
forms of payments or services that would aid these veterans in 
their procreative and adoptive pursuits.
    Finally, Mr. Chairman, the evidence development discussion 
draft. If enacted, the legislation would affect consideration 
of evidence before the agency of original jurisdiction AOJ, and 
the Board of Veterans Appeals board. DAV opposes this 
legislation as it would create artificial suspense dates, 
limits an appellant's opportunity request for AOJ review of 
evidence, unnecessarily routs un-investigated appeals directly 
to the board, attaches finality due to a board's decision on 
evidence reviewed in the first instance, and does not address 
how appellants would be made aware of their evidence review 
options.
    Simply closing the record or limiting AOJ review of 
evidence with the intention of getting the information before 
the board in the first instance has several inherent 
consequences as described in greater detail within our written 
testimony. Because of the potential detrimental effects on the 
due process rights of veterans, DAV would be opposed to this 
legislation if it were to be enacted.
    For the remaining bills, please see our written testimony 
for our comments and organization's positions. Dr. Abraham, 
Ranking Member Titus, and Members of the Subcommittee, I look 
forward to your questions today, and thank you.

    [The prepared statement of Paul R. Varela appears in the 
Appendix]

    Mr. Abraham. Thank you, Mr. Varela.
    Ms. Davis, you are recognized for five minutes.

                  STATEMENT OF ELIZABETH DAVIS

    Ms. Davis. Thank you. I would like to take a moment and 
thank Chairman Abraham and Ranking Member Titus for this 
opportunity to testify on behalf of the Love Lives On Act for 
our military surviving spouse community. With me in attendance 
today are several of the widows of our Nation's heroes. 
Although I will only be speaking about my own personal 
experience, each of these individuals has a heartbreaking story 
of sacrifice for our Nation.
    My name is Elizabeth Davis, and I am a 29-year-old mother, 
nurse, and widow to my marine. My husband, First Lieutenant 
Matthew Davis, was killed on 7 November 2014. While Matt was 
serving as officer of the day on regimental duty, he was struck 
and killed by a fellow 2-5 marine who was drunk driving and 
evading the police. Matt was a selfless, gregarious, giant of a 
man with a sense of humor as big as he was. Nothing will ever 
change my feelings for him, even though I know he will not be 
coming back.
    The night I found out he was killed, I actually had a heart 
attack when our best friend showed up in his dress blues to 
deliver the news in the early hours of the morning. I quite 
literally will bear the scars on my heart from this news for 
the rest of my life.
    After recovering from the shock of being widowed, I decided 
I was going to honor my husband by devoting my time and energy 
into making this rough journey easier in any way possible for 
other military widows. I started looking for ways to help 
widows provide for themselves and their families when I moved 
back to Virginia. The first step was to ensure that Virginia 
accepted the Department of Defense's definition of gold star 
spouse, making sure that we honored the sacrifices of those 
killed in the line of duty as well as those killed in action. 
With the help of my delegate, House Bill 98 was introduced and 
passed through the Virginia House of Delegates and Senate. 
Recently, I was granted the opportunity to discuss with the 
Commandant in the Marine Corps, General Neller, how the culture 
of alcohol in the Marine Corps has impacted my family.
    I have also remained active in the Stafford County Armed 
Services Memorial Committee. My long-term goal is to ensure 
that our widowed community, which has already given so much for 
this great Nation, faces no additional or unnecessary hardship.
    The next step, which I pray you will support, is to improve 
the lives of this very small, but very important community. We 
are seeking repeal and amendment to the age stipulation through 
the Love Lives On Act. Currently, as the widow of a fallen 
servicemember, you may remarry and retain your benefits after 
the age of 57. With the vast majority of our heroes being young 
and leaving behind spouses who are equally young, it is 
unreasonable to expect a surviving spouse not to seek out 
happiness and love again well before he or she is 57.
    As it currently stands, I and the other survivors in this 
room have no incentive to move on with our lives and rebuild 
our families. Rather, we are strongly bound to remain single 
parents with incomplete families in order to retain benefits 
that our husbands earned by dying for this country. The full 
impact of this, the current limitation is felt not only by the 
surviving spouse, but also by the children of our fallen. These 
benefits have been earned at the cost of loss of life for 
country, and are necessary in maintaining the needs of the 
spouse and all of the surviving children.
    This program is vital because it provides the ability to 
have a safe home and food on plate for the families who are 
left behind. In almost every case of a widower or widow, our 
Nation puts the draconian decision to choose to seek love again 
over being pragmatic with our finances. This choice is 
ultimately made for us, hindering the very freedoms our spouses 
gave their lives for under the current guidelines.
    Why would anyone in this room choose to remarry when we can 
receive these benefits but date a new person in perpetuity? 
Amending the statute would cement the belief in our 
servicemembers that the United States cares what happens to 
them as individuals. Not only is the sacrifice and commitment 
that they made in dying for our country forever, but so too is 
the commitment of the United States to their families should 
they perish.
    The risks and lifestyles associated with our Nation's 
military can be unpredictable, but providing benefits for those 
left behind should not be. We should not be punished for 
seeking out love and happiness that our spouses would want us 
to have. As a spouse, we deserve to try and heal and be happy, 
and for the children left behind, they deserve a stable, loving 
home, where both of their parents are legally recognized as a 
family unit, without repercussion of the loss in necessary 
income.
    Through your vote, you can make a positive change for the 
families of our fallen heroes. By continuing to provide 
benefits to surviving spouses, families will heal and produce 
children that will grow up knowing that service has meaning. 
For us as widows, life truly is too short. We fully grasp that 
concept, often in our 20s and 30s when our peers won't have to 
face these kind of hardships for decades. Please enable us to 
have a choice in marriage before the age of 57.
    The widows and children of the fallen were handed a folded 
flag on behalf of a grateful Nation. In that short moment of 
handing the flag over, there is no if or but when it comes to 
the commitment our husbands showed this great Nation. I have 
the utmost faith that the men and women in this room will do 
their best to honor that oath paid for in blood well before we 
are 57.

    [The prepared statement of Elizabeth Davis appears in the 
Appendix]

    Mr. Abraham. Thank you, Ms. Davis. There are simply no 
words to express what I know you and the ones behind you and 
the thousands across the Nation in your shoes, unfortunately, 
are feeling, but thank you for your service, and those behind 
you for your service to this country, certainly your fallen 
heroes that you no longer have.
    Mr. Lilley, you are recognized for the American Legion for 
five minutes.

                 STATEMENT OF EDWARD G. LILLEY

    Mr. Lilley. Thank you, and good morning, Mr. Chairman, 
Ranking Member Titus and Members of the Committee. On behalf of 
National Commander Dale Barnett and the over two million 
members of The American Legion, we are pleased to offer remarks 
regarding pending legislation. The slate of bills covers a wide 
range of topics, and proof that the impact of the Department of 
Veterans Affairs and its benefits are due to the wide-ranging 
needs of veterans community, many of whom have physical and 
emotional scars related to their service in the armed forces. 
There are several good bills up for discussion today, and you 
have my full written remarks, but in the interest of time, I 
would like to focus on four key bills.
    First, I would like to start talking about the VET Act. In 
response to a national crisis, The American Legion immediately 
went to work in communities throughout the country, meeting 
with veterans face to face, one at a time. American Legion 
began setting up veterans benefit centers, or VBCs, throughout 
the country by collaborating with VA staff, American Red Cross 
volunteers, and other community partners to staff over a dozen 
VBCs across the country within the first nine months of the 
Phoenix scandal. During these VBCs, we were able to assist more 
than 3,000 veterans and their families with scheduling 
outpatient appointments, enrolling in the VA health care 
system, and applying for compensation, pension, disability 
indemnity compensation benefits, and other services veterans 
and their families needed assistance with.
    I would like to share two success stories on how veterans' 
lives have been impacted by our VBCs. A homeless veteran who 
came to the Fayetteville, North Carolina VBC looking for 
assistance stated ``I didn't have a lot of faith in what was 
going on, but someone did help me out and I want you all to 
know that in my bank account this morning was my $11,000 retro 
check. I can now move me and my son out of my vehicle and I can 
buy my son a healthy meal.'' A veteran from Texas stated, ``I 
had an appointment that was 120 days down the road with my 
primary doctor. They took care of it and moved it up a month 
and a half.''
    The VBCs work in the same manner as this bill, putting all 
the players in the community together to get the help to the 
veterans. This bill would help veterans receive the benefits 
they have earned by addressing the barriers between VA and the 
veterans they serve within the community. Therefore, The 
American Legion supports the VET Act.
    The Medal of Honor is the United States of America's 
highest military honor awarded for personal acts of valor above 
and beyond the call of duty. The intent of the next two bills 
is to expand benefits to Medal of Honor recipients. H.R. 4757 
would direct the VA to furnish at a private cemetery a 
headstone, marker, or medallion that signifies the status of an 
eligible veteran as a Medal of Honor recipient. The Medal of 
Honor Legacy Act would hold 1,000 of the remaining 60,000 
burial plots at Arlington National Cemetery to be exclusively 
assigned to Medal of Honor recipients should they choose to be 
buried there. This would allow those who have received the 
highest military honor to continue to have a place at the 
Nation's most hallowed burial place. By resolution, The 
American Legion supports any legislation that would expand the 
benefits to Medal of Honor recipients.
    Finally, I would like to discuss the Compensation Cost of 
Living Adjustment Act of 2016, or COLA. This bill allows for a 
COLA for VA disability benefits. However, within section 2 of 
this bill, it is noted that each dollar amount increased under 
paragraph 1, if not a whole dollar, shall be rounded to the 
next lower whole dollar amount. In order for The American 
Legion to support this bill, we ask Congress to remove section 
2 and allow veterans to receive the full benefits awarded due 
to their service without rounding down.
    Again, on behalf of National Commander Dale Barnett, and 
the members that comprise this Nation's largest wartime veteran 
service organization, we appreciate the opportunity to speak 
before you this morning to discuss these bills that could have 
long-lasting effects upon the veteran community. I will be 
happy to answer any questions the Committee may have. Thank 
you.

    [The prepared statement of Edward G. Lilley appears in the 
Appendix]

    Mr. Abraham. Thank you, Mr. Lilley, and thank you all for 
your testimony.
    I will start with some questions, and this is for everyone 
on the panel. Based on your organization's experience, how 
would veterans and their families benefit, assuming that they 
receive the COLA next year?
    Mr. Blake?
    Mr. Blake. Well, that is assuming that there is going to be 
a COLA, particularly this year when we had zero percent. I 
mean, I think it is a well-established fact that the cost of 
living doesn't go down year after year despite what the COLA 
statistics suggest. It impacts their ability to pay their 
bills, you know, provide for their families, I mean we are 
talking about not necessarily significant amounts, but it plays 
into the way that many families budget for their daily living. 
Without the COLA, you know, that has an impact.
    Mr. Abraham. Mr. Morosky?
    Mr. Morosky. I concur with that, Mr. Chairman. You know, in 
addition, this year where there wasn't the COLA, we received a 
lot of calls from our members talking about how they feel as 
though cost of living has gone up. Food gets more expensive, 
housing costs have gotten more expensive, you know, having 
looked into it, you see that the reason why the CPI stayed flat 
was because gasoline prices fell so much. But as has been 
pointed out by others, some people who are severely disabled or 
elderly people may not necessarily benefit as much from falling 
gasoline prices, but they certainly feel the raising medical 
costs, the raising housing costs, and the raising food costs. 
So cost of living increases is critically important.
    Mr. Abraham. Thank you. Mr. Varela?
    Mr. Varela. Thank you, Dr. Abraham. I would align our 
comments with that of PVA and VFW, but also add what the 
representative from American Legion stated about eliminating 
the round-down provision which I think is particularly 
important this year if we are able to get a COLA passed, seeing 
as one was not passed this year. And also, you know, we want 
veterans who are receiving disability compensation to be able 
to meet a basic standard of living, and we continue to erode 
the potency of their disability compensation as it pertains to 
their ability to maintain that standard of living.
    Mr. Abraham. Ms. Davis, do you have a comment?
    Ms. Davis. No, sir, I do not. Survivors do not receive a 
COLA.
    Mr. Abraham. I understand.
    Mr. Lilley?
    Mr. Lilley. Mr. Chairman, for these veterans and their 
family members, COLA is not simply an acronym or a minor 
adjustment in benefits, instead it is a tangible benefit that 
meets the needs of the increasing costs of living in a Nation 
that they bravely defended. By resolution, American Legion 
supports any legislation to provide a periodic cost of living 
adjustment increase, and to increase the monthly rates of 
disability compensation. So we agree that it is an important 
benefit that needs to be increased.
    Mr. Abraham. All right. Thank you all.
    Mr. Varela, this is for you, I guess. Why do you believe 
that the current rate on special monthly compensation, SMCK, is 
not sufficient for veterans who have received a catastrophic 
injury to their creative organs?
    Mr. Varela. If I am not mistaken, the rate that is paid for 
SMCK is roughly $100 a month. I don't know that that is enough 
to help somebody procreate. It is not enough to help somebody 
procreate, and it wouldn't be enough to help with adoptive 
services. So there has to be something else in place to help 
overcome that barrier where that special monthly compensation 
doesn't really achieve the particular outcome.
    Mr. Abraham. Okay.
    Mr. Lilley, the next question is for you. You indicate that 
you support the draft legislation on development of evidence. 
How do you think this proposed change would expedite the 
appeals process?
    Mr. Lilley. So Mr. Chairman, we have seen proof. So VA 
issued Fast letters 13-21 and 14-02 in 2013 and 2014, 
respectively, that directed its employees to proceed in the 
manner directed by the drafted legislation. In July of 2015, 
the VA included language from the Fast letters in M-21-1. While 
preparing for this testimony, American Legion contacted one of 
our seasoned accredited representatives in Detroit, and he 
couldn't have been more empathetic and supportive of the 
results of the Fast letters. Instead of veterans waiting for 
nearly a year to have supplemental statement of the case, or 
SSOC, the case could be forwarded to be certified by the BVA. 
American Legion is supportive of the VA having efficient 
manners to adjudicate claims and appeals through eliminating 
the requirement of an SSOC, and veterans are not being punished 
for submitting evidence following the filing of the substantial 
appeal.
    Mr. Abraham. Okay. All right. Thank you, Mr. Lilley.
    Mr. Morosky, please elaborate on what you believe that the 
families of the reserve and the National Guard servicemembers 
should be able to receive a presidential memorial certificate 
commemorating their service to the country?
    Mr. Morosky. Well, quite simply, Mr. Chairman, these are 
servicemembers who have died in the line of duty. We already 
grant it to active duty servicemembers who die in the line of 
duty. We feel as though members of the Guard and Reserve as 
well as ROTC cadets who die training in the line of duty, you 
know, their families are equally deserving of that recognition.
    Mr. Abraham. Thank you. I am out of time.
    Ms. Ranking Member Titus?
    Ms. Titus. Thank you. Thank you very much. I appreciate Mr. 
Blake, you mentioning how this whole compensation for loss of 
creative organs also affects women. But it would be very nice 
to have some women veterans at the table talking about it 
themselves. So I hope, as this moves forward, we have those 
representatives here to help us structure this in a way that 
will truly be helpful.
    It seems to me that somebody, some time, made an arbitrary 
decision that an organ is worth a certain amount. You lose an 
arm, you get a certain amount. You lose an eye, you get a 
certain amount. You lose the ability to have children, you get 
a certain amount. So we are saying that the inability to have 
children is worth $100 a month. Is that kind of how it works, 
Mr. Blake, or anybody?
    Mr. Blake. I guess, theoretically speaking, that is 
probably true.
    Ms. Titus. Do you think it is worth more thank that?
    Mr. Blake. Well, in my opinion, it is priceless.
    Ms. Titus. Exactly, exactly. Thank you very much for saying 
that. I mean, that says it all. But I would ask one specific 
question about the bill that is before us that has to do with 
this issue, which I agree with what many of you said is not the 
way to go about addressing it and it is just kind of half-
assed, actually. But under this bill, where you get a lump sum 
to pay for adoption, I don't believe there is anything in the 
bill, and correct me if I am wrong, that says you have to be 
married to get this, to use this money for adoption. And also 
you could be a gay couple and use this money for adoption. Is 
that accurate?
    Mr. Blake. I don't think it makes any particular 
distinction. I think you are eligible for the benefit, the 
veteran is eligible for the benefit. The relationship they are 
in is not contemplated in the context of the legislation.
    Ms. Titus. Okay. Thank you very much. I yield back.
    Mr. Abraham. Thank you, Ms. Titus.
    Ms. Brownley?
    Ms. Brownley. Thank you, Mr. Chairman, and thank you Ms. 
Davis for your testimony, particularly today. And we 
appreciate, we are deeply sorry, and appreciate your husband's 
service to our country and certainly your service to our 
country as well, because we all know here that it really takes 
a whole family to support the man or woman who is on the 
battlefield. So thank you very much for that. And to all of the 
other spouses that are here today standing with you on this 
really important issue.
    I just think it, you know, when we are talking about a 
benefit to surviving spouses, when someone dies in a family, I 
think everyone, their wishes for the surviving spouse, 
particularly in this case for the surviving family members is 
that they want to be, first make sure that their family is 
taken care of, and secondly to wish them, you know, happiness 
in their future life. And I think this is a really important 
bill to try to meet that criteria, if you will.
    And, you know, when someone who has served our country and 
served our country so bravely, we need to make sure that, if 
they die, that we are taking care of them and they don't have 
to worry about their family once they are deceased. That they 
need to know unequivocally that we are going to take care of 
their family. And so I think this bill is extremely, extremely 
important to make sure that we are taking care of the family 
and wishing the spouse a quality of life and happiness in his 
or her life, without question.
    And I guess, Ms. Davis, I would just ask the question to 
you based on your conversations and your advocacy with the 
widowed community within the military, do you have 
relationships with people who have absolutely postponed their 
happiness and their pursuit of happiness because they have to 
be 57 years or older?
    Ms. Davis. Absolutely, particularly when there are children 
involved, that monthly benefit is mandatory, just to keep the 
household running and all of our basic necessities. We are 
punished if we do get married. We are punished at a certain age 
if we don't get married. We are punished with some of our 
benefits if we choose to work. So we are kind of stuck in this 
catch-22 where we have to postpone our lives. It is not really 
a choice that we get to make. And it is extremely unfortunate 
that we have these heroes who we are so proud of, who have 
defended all these freedoms for everybody else, but nobody is 
looking out for our freedoms and that is not okay. I hope that 
answers your question.
    Ms. Brownley. Yes, yes thank you. And I think, you know, 
another point that I would just make on this particular issue 
when we are talking about our younger men and women, surviving 
spouses who are younger, if they choose to work, they are very 
early in their career. And we know as we climb the career 
ladder, we tend to make more as we pursue that career year 
after year after year, so logic says when you are young and 
early you just might be beginning that process. And that 
compensation becomes even more important for our younger 
spouses than those who might have been--may have been working 
in their careers, and as they reach an earlier age, might be 
yielding, you know, more significant income. That doesn't apply 
to everyone, but it could apply to some.
    So, anyway, I just want to thank you again, you know, for 
your courage to be here, and for the other surviving spouses 
who are here, thank you for being here, thank you for your 
testimony, and thank you for your advocacy, and we hope very 
much that we can succeed in this endeavor.
    The last question that I would just ask very quickly of The 
American Legion is that I noticed that you didn't make a 
comment or don't have a recommendation on Mr. Miller's 
reproductive assistance bill, and if you have an opinion, 
specifically on the bill?
    Mr. Lilley. Thank you, Congresswoman. We are very excited 
about the effort to try and make veterans with service-
connected injuries whole again. We fully support parity between 
the authorized services offered to DoD active duty members and 
the veterans who have since left DoD with the exact same 
complications. We do have some concerns over the language that 
we believe would be easy to overcome, and we look forward to 
working with the congressional staff to work through these 
concerns.
    Ms. Brownley. Thank you. I yield back.
    Mr. Abraham. Thank you, Ms. Brownley.
    If there are no further questions, this panel is excused.
    I want to thank everybody for coming here today and sharing 
your views on these 11 bills. Ms. Davis, again, thank you and 
those behind you for your journey. I wanted to tell you that my 
bill, cosponsored by Ms. Titus, does have COLA increases for 
DIC benefits, so maybe a little ray of sunshine there.
    I ask unanimous consent that written statement provided by 
the Vietnam Veterans of America be placed in the hearing 
record. Without objection, so ordered.
    Finally, I ask unanimous consent that all members have five 
legislative days to revise and extend their remarks, and 
include extraneous material on any of these bills under 
consideration this afternoon. Without objection, so ordered.
    This hearing is now adjourned.

    [Whereupon, at 11:52 a.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

  Prepared Statement of Corrine Brown, Ranking Member, Full Committee
 Statement in Support of The Final Farewell Act and The Love Lives on 
                                  Act
    Thank you, Mr. Chairman for the opportunity to speak on behalf of 
the important bills under consideration today.
    In particular I am pleased that we will be considering a bill H.R. 
3715, The Final Farewell Act that is of great importance to my 
constituents.
    While VA has the authority to provide weekend services to veterans 
and their families, they rarely do.
    This has been a particular challenge for various religions and 
cultures who bury their loved ones on Saturdays.
    Just two weeks ago I attended a funeral service on a Saturday then 
had to wait along with the family until Monday to bury the loved one 
because the cemetery would not bury the service member on Saturday.
    This compounded stress, from losing a loved one and being forced to 
break with tradition, is unnecessary.
    My legislation, The Final Farewell Act, will make it easier for 
families with religious and cultural traditions to bury their loved 
ones at a time that works for them.
    Our veterans deserve to have this common sense convenience.
    Thank you for your consideration H.R. 3715 and the support of this 
common sense change.
    Another bill that I am very proud to have introduced, is The Love 
Lives on Act.
    I had the opportunity to host our surviving spouses at a roundtable 
last November.
    I heard them loud and clear, follow the United Kingdom's lead and 
eliminate the age restriction on remarriage!
    What many may not know is that our current law is discouraging 
widowed spouses of our most valiant servicemembers from remarrying.
    The U.K. noted that many of these spouses are in committed 
relationships but refrain from marriage to retain this income.
    The right thing to do is clear and I hope to have my colleagues 
support.
    Lastly, I would like to voice serious concern for the legislative 
proposal from Chairman Miller that would pay two lump sum payments of 
$10,000 for those who lose their use of a creative organ.
    This legislation is trying to address a health issue by offering 
cash instead of needed timely treatment and I strongly oppose it.
    I believe a better alternative and compromise, is the language that 
has been agreed to in a bi-partisan manner, is the agreement struck by 
the Senate to provide these veterans with healthcare.
    This language is very similar to language proposed last year by 
Chairman Miller and in concept I support that.
    Being able to have a family is an important step toward healing our 
veterans and their families. I committed to working to find way to make 
that happen.

                                 -------
                 Prepared Statement of David McLenachen
    Good afternoon, Mr. Chairman, Ranking Member Titus, and other 
Members of the Subcommittee. Thank you for the opportunity to be here 
today to discuss legislation pertaining to the Department of Veterans 
Affairs' (VA) programs, including the following: H.R. 3715, H.R. 3936, 
H.R. 4087, H.R. 4757, H.R. 4758, H.R. 4759, H.R. 4782, a draft bill 
``to pay special compensation to certain Veterans with the loss or loss 
of use of creative organs,'' a draft bill ``to improve the 
consideration of evidence by the Board of Veterans' Appeals,'' and a 
draft bill entitled the ``Love Lives on Act of 2016.'' There is also a 
draft bill under discussion today entitled ``Medal of Honor Legacy 
Act,'' which would affect programs or laws administered by the 
Secretary of the Army. Respectfully, we defer to the Secretary of the 
Army's views on that draft bill. Accompanying me this afternoon is Mr. 
Matthew T. Sullivan, Deputy Under Secretary for Finance and Planning 
and Chief Financial Officer for the National Cemetery Administration.
                               H.R. 3715
    H.R. 3715 would require VA to permit interments, funerals, memorial 
services, and ceremonies of deceased Veterans at national cemeteries 
during weekends, except weekends that include Federal holidays, if 
requested for religious or cultural reasons. The bill would also 
require that VA make any grant to a State to assist in establishing a 
Veterans' cemetery conditioned upon the State permitting interments, 
funerals, memorial services, and ceremonies during weekends, except 
weekends that include Federal holidays, if requested for religious or 
cultural reasons. The bill would require VA to provide notice to anyone 
requesting burial of a decedent in a national cemetery that he/she may 
request, for religious or cultural reasons, that the interment, 
funeral, memorial service, and ceremony be conducted on a weekend, 
except a weekend that includes a Federal holiday.
    Although VA appreciates the intent of the bill, VA does not support 
the bill because it could inadvertently disrupt VA's flexibility to 
accommodate the very requests the bill is addressing. Across the 
national cemetery system, VA conducts committal services and interments 
on weekend days on a case-by-case basis to accommodate exceptional 
circumstances, including religious or cultural reasons. VA also 
provides weekend burials for Servicemembers who are killed in action. 
As a long-standing policy, VA will not go more than two days without 
offering national cemetery burial, so even when others may have a 
three-day Federal holiday weekend, VA cemeteries will conduct burials 
on at least one of those three days. VA is concerned that memorializing 
this in statute may be interpreted as allowing weekend burials for only 
religious and cultural reasons. VA believes that these operational 
decisions are best left to VA to decide on a case-by-case basis, as a 
matter of policy.
    VA's current policy is designed to minimize the number of 
interments during weekends to allow a peaceful time for families to 
visit the gravesites of loved ones without the disruption of cemetery 
burial and maintenance operations, or by special ceremonies that are 
held to honor Veterans and Servicemembers. However, VA has requested 
VA's Advisory Committee on Cemeteries and Memorials to review the 
feasibility and resource requirement of offering weekend burials at VA 
national cemeteries. The Secretary of Veterans Affairs is authorized by 
Congress (38 U.S.C. Sec.  2401) to ``advise and consult'' with the 
Advisory Committee on ``administration of the cemeteries.'' The 
Advisory Committee was charged with making recommendations regarding 
weekend burials, with its final recommendations to be presented at its 
spring 2016 meeting.
    Additionally, VA does not support the requirement in H.R. 3715 that 
would mandate VA to condition a grant provided to a State under VA's 
Veterans Cemetery Grants Program (VCGP) on the State's agreement to 
permit weekend interments, funerals, memorial services, and ceremonies 
of deceased Veterans. This provision would significantly increase the 
supervision and control that VA has traditionally exercised over State 
Veterans cemeteries funded through the VCGP. The VCGP allows VA to 
partner with States and Tribal organizations to increase Veterans' 
access to a burial option. The grants are not without conditions, but 
those conditions are generally designed to ensure that the burial 
option provided by the State or Tribal organization is of a quality 
consistent with that available to Veterans at the national cemeteries. 
The condition proposed in H.R. 3715 would involve VA in operational 
decisions that we have left to the States since the inception of the 
VCGP. VA codified this position in 38 C.F.R. Sec.  39.11, which 
prohibits the Secretary or any employee of VA from exercising ``any 
supervision or control over the administration, personnel, maintenance, 
or operation'' of any Veterans cemetery operated by a State or Tribal 
organization that receives a grant. Requiring, by statute, the addition 
of weekend interments imposes a potentially serious resource burden on 
the States' cemetery budgets, staffing, and resources. Making weekend 
burials a condition of receiving a cemetery grant may cause States to 
reconsider application for a grant, out of concern that they could not 
meet the condition without significant resources. This could have a 
negative impact on VA's initiative to provide burial options in 
partnership with State cemeteries. These partnerships are a critical 
element of VA's plans to ensure access to a burial option to the 
greatest number of Veterans. Imposing an operational requirement, such 
as weekend burials, may hinder States' ability or willingness to 
partner with VA to open new cemeteries, which would constrain access to 
underserved populations. We note, too, that the proposed provision 
applies only to cemeteries operated by States, not those operated by 
Tribal organizations. This could raise further concerns by the States 
about conditions being imposed on them, but not other VA grantees. VA 
would be happy to work with the Committee to address these issues.
    An estimate of the costs that would be associated with enactment of 
this bill is not available at this time.
                               H.R. 3936
    H.R. 3936 would direct VA to carry out a three-year pilot program 
of ``Veterans Engagement Teams events.'' During these events, VA would 
be required to initiate, develop, and finalize any claims for 
disability compensation and pension benefits received. The bill would 
require VA to allocate sufficient personnel, such as claims processors 
and medical personnel, to carry out this pilot program. During the 
first year of the pilot, VA would be required to have monthly events at 
ten regional offices. During the second and third years, VA would be 
required to carry out monthly events at a minimum of fifteen regional 
offices. The bill would not authorize additional funding to create or 
support these events.
    VA does not support the proposed bill. VA is currently piloting a 
similar program (termed ``VA claims clinics'') to the event-based team 
concept advocated in this bill. While VA has not completed its analysis 
of the claims clinic pilots, preliminary analysis of this program has 
found that it takes significantly more resources compared to VA's 
current claims process to initiate, develop, and finalize a claim for 
benefits all in one event. These clinics, while successful for some of 
the individual Veterans who attend the clinics, have not resulted in an 
overall reduction in processing time for Veterans' claims. The claims 
clinics have demonstrated that event-oriented processing is vastly more 
costly than VA's traditional claims processing methods.
    An estimate of the costs that would be associated with enactment of 
this bill is not available at this time.
                               H.R. 4087
    H.R. 4087 would amend title 38, United States Code, to adjust the 
effective date of certain reductions and discontinuances of 
compensation, dependency and indemnity compensation, and pension under 
the laws administered by the Secretary of Veterans Affairs.
    Section 2(a) of the bill would amend 38 U.S.C. Sec.  5112(b)(1) by 
striking ``last day of the month before'' and inserting ``last day of 
the month during which.'' As a result, the statute would read, ``The 
effective date of a reduction or discontinuance of compensation, 
dependency and indemnity compensation, or pension . . . by reason of 
marriage or remarriage, or death of a payee shall be the last day of 
the month during which such marriage, remarriage, or death occurs.''
    VA opposes the proposed bill. VA was provided the opportunity to 
provide technical assistance on the proposed legislation earlier this 
year. At that time, we were informed that the purpose of the amendment 
is to prevent situations where families may be required to return VA 
benefits that have already been paid.
    The amendment is ambiguous in that it would either prevent payment 
of a benefit to a Veteran's surviving spouse under 38 U.S.C. Sec.  
5310(a) (``Payment of benefits for month of death''), or it would 
result in a double payment for the month of death-one payment to the 
surviving spouse under existing law and a second payment to the 
Veteran's heirs under the amendment. Under section 5310, a Veteran's 
surviving spouse is entitled to receive a benefit for the month of the 
Veteran's death if the Veteran was receiving, or was entitled to 
receive, compensation or pension under chapter 11 or 15 of title 38, 
United States Code. The amount of the benefit to the surviving spouse 
is the amount the Veteran would have received for the month of the 
Veteran's death had the Veteran not died. 38 U.S.C. Sec.  5310(a)(2). 
Pursuant to the amendment, the Veteran would still receive payment for 
the month of death, and therefore the amendment would either override 
section 5310 or it would result in double payment.
    Similar to the Social Security Administration, VA pays benefits one 
month in arrears. Therefore, the benefit that a beneficiary received on 
December 1, 2015, for example, was the benefit owed for the month of 
November 2015. If the Veteran passed away in December 2015, his 
entitlement would cease as of November 30, 2015, under current 38 
U.S.C. Sec.  5112(b)(1). VA would not recoup the benefits paid on 
December 1, because the Veteran was entitled to that payment for the 
month of November. The technical assistance request described a 
situation in which a surviving spouse received two payments in December 
2015 - one dated December 1, 2015, for the month of November and one 
dated December 31, 2015, for the month of December (paid prior to 
January 1, 2016, due to the holiday). The surviving spouse was not owed 
a benefit for the month of December because she died during that month.
    According to the technical assistance request, the bill is for the 
purpose of preventing situations where families may be required to 
return benefits that VA has already paid. The bill would not achieve 
that purpose. Although the bill would potentially allow for an 
additional month of benefits, current law ensures that survivors and 
other individuals receive the accrued benefits to which they are 
entitled. See 38 U.S.C. Sec. Sec.  5121, 5121A, 5310(a). In the example 
described in the technical assistance request, VA might still be 
required to recoup the benefit paid to allow for proper determination 
of entitlement under 38 U.S.C. Sec.  5121.
    The bill would increase mandatory benefit expenditures resulting 
from the additional month of entitlement after a beneficiary's death. 
Currently, only a Veteran's surviving spouse is entitled to the 
Veteran's month-of-death benefit. See 38 U.S.C. Sec.  5310(a). The bill 
would require VA to pay a Veteran's benefits for the month of death 
irrespective of whether there is a surviving spouse, and such payments 
could pass to an estate or other heirs, or might escheat to the State. 
Finally, the bill would significantly increase VA's accrued benefits 
caseload because the beneficiary's payment for the month of death could 
be an accrued benefit (benefit due to the beneficiary at the time of 
death).
    This bill could also complicate VA and Treasury's efforts to meet 
the requirements of the Improper Payments Elimination and Recovery 
Improvement Act of 2012 (IPERIA). Pub. L. No. 112-248. The process 
under current law (payment for the preceding month) furthers the IPERIA 
requirement that VA prevent payments to individuals not entitled to the 
benefit, including those who are deceased.
    An estimate of the costs that would be associated with enactment of 
this bill is not available at this time.
                               H.R. 4757
    H.R. 4757 would amend 38 U.S.C. Sec.  2306(d) to authorize VA to 
furnish, upon request, a headstone, marker, or medallion for recipients 
of the Medal of Honor (MOH) who are interred in private cemeteries. The 
bill also authorizes VA to replace, upon request, an existing 
government-furnished headstone, marker, or medallion for a decedent if 
the original headstone, marker, or medallion does not signify the 
decedent's status as an MOH recipient. These changes would apply to 
decedents who served in the Armed Forces on or after April 6, 1917; who 
are eligible for a Government-furnished headstone, marker, or medallion 
(or would have been eligible but for the date of death); and who 
received the MOH (including posthumously). The bill impliedly requires 
design of a new medallion for MOH recipients.
    Currently, section 2306(d) allows VA to provide, upon request, a 
government-furnished headstone or marker for the gravesite of a Veteran 
in a private cemetery, even if that gravesite is marked with a 
privately purchased headstone or marker, or, in the alternative, to 
provide a medallion that may be affixed to the privately purchased 
headstone or marker. These provisions allow families who elect private 
cemetery burials and private memorialization to ensure that the 
gravesites of Veterans appropriately signify the burial location of 
someone who served our Nation. These ``supplemental marker'' benefits, 
however, are available only for the gravesites of Veterans who died on 
or after November 1, 1990. See Pub. L. 110-157, Sec.  203(b), 121 Stat. 
1831, 1833 (Dec. 26, 2007). VA is not authorized to provide a 
``supplemental'' headstone or marker, or a medallion, for Veterans who 
died prior to November 1, 1990, who are interred in private cemeteries, 
and whose gravesites are marked with privately purchased headstones or 
markers, even if those Veterans were MOH recipients.
    VA supports the general intent of H.R. 4757 to ensure that the 
gravesites of MOH recipients buried in private cemeteries are 
identifiable. However, the extraordinary and distinctive service that 
the award of the MOH represents should be permanently and distinctively 
memorialized for all MOH recipients, regardless of their date of death 
or burial location. H.R. 4757 would limit VA's authority to provide a 
MOH headstone or marker to those who died on or after April 6, 1917, 
and only for those who are buried in private cemeteries. The bill also 
fails to take into account concerns associated with replacing 
government-furnished headstones and markers that may have been provided 
decades ago and are therefore subject to historic preservation issues. 
Historic preservation concerns could also arise when considering 
affixing a medallion to a privately furnished headstone provided 
decades ago.
    VA would strongly support an amendment to H.R. 4757 to authorize 
the provision of a separate and distinct MOH marker to be placed at any 
marked gravesite of any MOH recipient in any cemetery, without regard 
to the decedent's date of death. Allowing for marking MOH graves with a 
separate marker would avoid concerns with removal or alteration of an 
existing, and possibly historic, headstone that already marks the MOH 
recipient's grave. It also would ensure consistent marking of those MOH 
gravesites that were marked prior to VA's development and provision of 
the distinctive MOH headstone that VA has provided since 1976. Finally, 
it would eliminate the need to design a separate medallion for MOH 
recipients. We are happy to work with the Committee to address these 
issues and to ensure consistency in the manner in which VA honors and 
memorializes all MOH recipients.
    We estimate mandatory benefit costs associated with enactment of 
this bill would be $33 thousand in 2018, $169 thousand over 5 years, 
and $353 thousand over 10 years. While costs are identified, this would 
reflect an insignificant cost to the compensation and pension benefits 
account, as it does not meet the $500,000 annual threshold established 
by OMB.
                               H.R. 4758
    H.R. 4758 would amend 38 U.S.C. Sec.  112(a) to authorize VA to 
furnish, upon request, a Presidential Memorial Certificate (PMC) for 
decedents who are eligible for burial in a VA national cemetery based 
on death while engaged in certain duty as members of the Reserve 
components of the Armed Forces and members of the Reserve Officers' 
Training Corps. These changes would apply to deaths occurring on or 
after date of enactment of this bill.
    The PMC program confers no entitlement for other VA benefits or 
services but serves an honorary and ceremonial function for Veterans 
who were discharged under honorable conditions, and for persons who 
died while on active military, naval, or air service. H.R. 4758 would 
extend eligibility for a PMC to two additional categories of 
individuals and would align the categories of individuals eligible for 
a PMC with the categories of individuals eligible for burial in a VA 
national cemetery. First, H.R. 4758 would allow provision of a PMC to 
any member of the Reserve components of the Armed Forces, and members 
of the Army or Air National Guard, whose death, as defined in 38 U.S.C. 
Sec.  2402(a)(2), occurred under honorable conditions while the member 
was hospitalized or undergoing treatment at the expense of the United 
States, for an injury or disease contracted or incurred under honorable 
conditions while performing active duty for training, inactive duty 
training, or while undergoing hospitalization or treatment at the 
expense of the United States. Second, by referencing section 
2402(a)(3), H.R. 4758 would allow provision of a PMC for members of the 
Reserve Officers' Training Corps of the Army, Navy, or Air Force whose 
death occurs under honorable conditions while the member is attending 
an authorized training camp or on an authorized practice cruise, 
performing authorized travel to or from that camp or cruise, or 
hospitalized or undergoing treatment at the expense of the United 
States.
    Although VA supports the general proposal in H.R. 4758 to expand 
eligibility for the PMC, we strongly recommend that the bill be amended 
to include another category of individuals who are eligible under 38 
U.S.C. 2402 for burial in a national cemetery. Section 2402(a)(7) 
includes as eligible those individuals who, at the time of death, are 
entitled to retired pay under chapter 1223 of title 10 or those who 
would have been entitled to retired pay but who died before reaching 
the age of 60. VA would strongly support an amendment to H.R. 4758 to 
allow for provision of a PMC for these individuals who, like those 
noted in the current bill, are eligible for burial in a national 
cemetery. Such an amendment would ensure alignment of the categories of 
individuals who are eligible for the PMC and for burial based on their 
service and would allow VA to provide eligible recipients (next-of-kin, 
relatives, or friends) of Reservists and retirees with a meaningful 
symbol of remembrance of their loved one's honorable service and 
sacrifice.
    Finally, VA disagrees with the provision in H.R. 4758 that limits 
availability of the PMC to recognize individuals in the newly added 
categories who die after the effective date of the bill. The PMC 
program issues certificates based on the military service, not the date 
of death, of the individual who served. To include an effective date 
based on the date of death would allow VA to provide a PMC to relatives 
or friends of a Reservist who died after the effective date of the 
provision, while denying a PMC to the family of a Reservist who died 
before the effective date-even if the two served together. We recommend 
that the provision be amended to allow issuance of the PMC regardless 
of the date of death of the individual honored by the PMC.
    If H.R. 4758 were enacted, VA anticipates no significant increases 
in workload or cost to the Government given the low number of deaths 
that occur in these groups each year, including the additional group of 
individuals eligible for burial under section 2402(a)(7) noted above.
                               H.R. 4759
    H.R. 4759 would extend the monetary allowance provision for 
transport of remains of eligible Veterans to a State or Tribal 
Veterans' cemetery. The current statutory provision provides the 
transportation allowance only for transportation of eligible Veterans' 
remains to a VA national cemetery. This bill would amend 38 U.S.C. 
Sec.  2308 to allow payment of the monetary allowance for transport of 
eligible Veterans' remains to covered Veterans' cemeteries. The bill 
defines a covered Veterans' cemetery as a Veterans' cemetery owned by a 
State or Tribal organization in which a deceased Veteran is eligible to 
be buried. This bill increases the options of burial locations for 
eligible Veterans including (1) a Veteran who dies as a result of a 
service-connected disability; (2) a Veteran who dies while in receipt 
of disability compensation (or would have received disability 
compensation but for the receipt of retirement pay or pension); and (3) 
Veterans whose remains are unclaimed.
    The Dignified Burial and Other Veterans' Benefits Improvement Act 
of 2012 expanded eligibility for the transportation allowance to ensure 
the dignified burial in a VA national cemetery of unclaimed remains of 
Veterans, who have no next of kin. This expansion was in recognition of 
the sad fact that many Veterans die homeless or, for a variety of 
reasons, do not have family or friends who are able or willing to claim 
their remains and make burial arrangements. VA regularly collaborates 
with organizations and volunteers who work to ensure these Veterans 
receive proper burials. H.R. 4759 provides support for these efforts by 
extending the allowance for transport of eligible Veterans remains to 
State and Tribal Veterans' cemeteries.
    VA supports the concept contained in H.R. 4759, subject to the 
availability of funds. We especially support expanding the 
transportation allowance to State and Tribal cemeteries for the 
unclaimed remains of Veterans who die without next of kin, as there are 
no costs associated with this expansion and it would ensure the 
availability of a dignified burial option for these Veterans. VA has 
developed strong partnerships with State and Tribal organizations that 
operate cemeteries for Veterans and eligible dependents. We view the 
additional option that this bill would provide for the unclaimed 
remains of Veterans as another step toward ensuring the goal of 
granting all eligible Veterans a dignified and proper burial, whether 
it is at a n8ational, State or Tribal Veterans cemetery.
    The Department has determined that as drafted the legislation would 
have associated benefit costs. However, VA is still determining those 
costs at this time.
                               H.R. 4782
    This bill would increase, effective December 1, 2016, the rates of 
compensation for Veterans with service-connected disabilities and the 
rates of dependency and indemnity compensation (DIC) for the survivors 
of certain disabled Veterans and for other purposes.
    H.R. 4782 would amend, effective December 1, 2016, each of the 
dollar amounts under the following sections of title 38, United States 
Code, for a cost-of-living adjustment (COLA):

    <bullet>  Section 1114, Wartime Disability Compensation;
    <bullet>  Section 1115(1), Additional Compensation for Dependents;
    <bullet>  Section 1162, Clothing Allowance;
    <bullet>  Section 1311(a) through (d), Dependency and Indemnity 
Compensation to Surviving Spouse; and
    <bullet>  Sections 1313(a) and 1314, Dependency and Indemnity 
Compensation to Children.

    This bill would provide that each dollar amount described above 
would be increased by the same percentage as the percentage by which 
benefit amounts payable under title II of the Social Security Act (42 
U.S.C. Sec.  401 et seq.) are increased effective December 1, 2016, as 
a result of a determination under section 215(i) of such Act (42 U.S.C. 
Sec.  415(i)). Each dollar amount increased, if not a whole dollar 
amount, would be rounded to the next lower whole dollar amount. This 
would renew round-down provisions that had been allowed to expire at 
the end of fiscal year 2013.
    Because VA compensation and DIC payments are not indexed, Congress 
generally enacts legislation on a yearly basis to adjust compensation 
and DIC benefits to reflect the percentage of change in the consumer 
price index relative to the prior year.
    VA supports this bill because it would express, in a tangible way, 
this Nation's gratitude for the sacrifices made by our service-disabled 
Veterans and their surviving spouses and children and would ensure that 
the value of their benefits will keep pace with increases in consumer 
prices.
    We estimate the cost of the COLA, effective December 1, 2016, would 
be $490.8 million during the first year, $3.0 billion for five years, 
and $6.6 billion over ten years. The FY 2017 President's budget assumes 
annual COLA increases for disability compensation and DIC in its 
baseline budget estimate. Therefore, there would be no increases to 
costs above the current baseline budget associated with the COLA. There 
would be no additional administrative costs.
 Draft Bill ``to pay special monthly compensation to certain Veterans 
           with the loss or loss of use of creative organs.''
    This bill would provide that Veterans who receive special monthly 
compensation under 38 U.S.C. Sec.  1114(k) (``SMC K'') for anatomical 
loss or loss of use of one or more creative organs would be entitled to 
receive two lump-sum payments, each in the amount of $10,000, to be 
paid not less than one year apart. The lump-sum payments would be paid 
in addition to SMC K payments, except for the month in which the 
Veteran receives the lump-sum payments. The Veteran must submit a 
separate, specific application for each $10,000 payment. This new 
expanded authority would be added to 38 U.S.C. Sec.  1114 and would be 
placed in new subsection (u). This would apply only to Veterans who 
receive disability compensation on or after the date of the enactment 
of the bill.
    VA cannot support this amendment. Expanding statutory authority to 
pay increased benefit payments for one particular group of disabled 
Veterans is inequitable. Moreover, administration of this benefit would 
add an undue level of complexity to the claims process.
    While sympathetic to Veteran cases involving anatomical loss or 
loss of use of creative organs, VA is concerned that the creation of a 
new type of benefit, in the form of lump-sum payment, would be 
inequitable. First, it should be noted that the compensation program, 
to include the VA Schedule for Rating Disabilities (38 C.F.R. Part 4) 
and special monthly compensation provisions (contained in 38 C.F.R. 
Part 3), already provides additional compensation to Veterans based on 
impairment from certain significant losses, such as amputations and 
loss of use of creative organs. Further, it could be argued that other 
categories of service-disabled Veterans should also qualify for 
additional lump-sum payments based on similar factors as experienced by 
those with a loss of a creative organ. VA is amenable to working with 
Congress and the Veteran community to further explore the 
appropriateness of lump-sum payments and specifically the effects of a 
loss of a creative organ and the monetary value that should potentially 
be placed on this, as well as other types of losses.
    In addition, VA is concerned about the increased complexity that 
would be created in the claims process and benefit systems if this bill 
were enacted. Lump-sum payments represent a departure from the 
longstanding monthly payment structure, and initiating and managing the 
required systemic changes for this single benefit would require 
significantly increased resources that otherwise could be used for 
providing faster and more efficient delivery of benefits and services 
to Veterans.
    In summary, VA does not support the draft bill, as the creation of 
a lump-sum payment for this purpose would represent a departure from 
the current benefits payment structure, would be inequitable to 
Veterans, and would be complex to administer.
    An estimate of the costs that would be associated with enactment of 
this bill is not available at this time.
   Draft Bill ``to improve consideration of evidence by the Board of 
                          Veterans' Appeals''
    This bill would allow the Board of Veterans' Appeals (Board) to 
consider, in the first instance, evidence submitted or identified by 
appellants or their representatives during the period beginning when 
the agency of original jurisdiction (AOJ) receives a substantive appeal 
and ending on the date the case is certified to the Board. If evidence 
submitted or identified during said timeframe requires VA to gather 
additional evidence, this bill would also subject such evidence to 
initial review by the Board. Appellants or their representatives would 
be permitted to elect to have the AOJ review evidence in the first 
instance. In cases where such an election occurs, this bill would 
require the AOJ to review the evidence submitted or identified within 
180 days after the evidence is received or identified, and to certify 
the case to the Board within 180 days of completing the review.
    Although VA appreciates the intent of this bill to expedite 
processing of appeals, VA does not support the bill as written. 
Improvements to the timeliness of appeals processing should be achieved 
through comprehensive reform of the multi-step, open-record appeal 
process set in current law. However, this bill seeks to address a 
single step in the multi-step process, while ignoring significant 
defects in the overall statutory framework that currently preclude 
efficiency in the process as a whole.
    Under current law, an appellant may submit or identify additional 
evidence at any point in the appeal process. Under its statutory duty 
to assist, VA is required to consider such evidence and obtain any 
additional evidence that may help the appellant substantiate the claim. 
See 38 U.S.C. Sec.  5103A. This process is repeated each time the 
appellant submits or identifies additional information. Therefore, in 
many cases VA cannot control the time it takes for completion of a 
particular stage in the appeal process. Therefore, this proposed 
legislation would not be helpful without first reforming the overall 
statutory scheme that governs the process, as VA requested in the FY 
2017 President's Budget.
    It should be noted that Congress has already provided some 
legislative relief in this area by amending 38 U.S.C. Sec.  7105 to 
allow the Board to consider evidence in the first instance when it is 
received with or after a VA Form 9, substantive appeal. See 38 U.S.C. 
Sec.  7105(e)(1). Transferring jurisdiction to the Board to consider in 
the first instance evidence identified by appellants may provide some 
additional relief in this area. However, as stated, such an incremental 
measure as that proposed in this bill would fail to address the 
multitude of existing defects in the current statutory framework.
    Finally, a few technical issues should be noted. First, this bill 
would establish a window - from the date the AOJ receives a substantive 
appeal to the date the AOJ certifies the appeal - for the submission of 
evidence that would be subject to review by the Board in the first 
instance. As written, the proposed legislation would lead to absurd 
results where evidence identified after certification to the Board 
would require initial review by the AOJ, but evidence received prior to 
certification would not. To avoid this result, the statutory language 
could be clarified to apply to all evidence submitted or identified at 
the time or after the AOJ receives a substantive appeal. In addition, 
the bill would require the AOJ, upon election by the appellant for 
initial review of new evidence by the AOJ, to review evidence within 
180 days of either receiving or being notified of new evidence, and 
certify the case to the Board within 180 days of completing this 
review. However, these timeframes do not account for the time it may 
take the AOJ to obtain or attempt to obtain evidence in accordance with 
the duty to assist. To address this issue, the bill could be amended to 
state that the AOJ should review new evidence and certify cases to the 
Board within a certain timeframe of either receiving or gathering new 
evidence, or of ``fulfilling its statutory duty under 38 U.S.C. Sec.  
5103A.''
    No mandatory costs would be associated with enactment of this bill. 
An estimate of discretionary costs is not available at this time.
                Draft Bill ``Love Lives on Act of 2016"
    This bill would modify the definition of surviving spouse to permit 
entitlement to VA benefits when a surviving spouse of a Veteran 
remarries.
    Currently, section 101(3) of title 38, United States Code, provides 
that to be considered a Veteran's surviving spouse, a person must not 
have remarried and must not have lived with another person and held 
him/herself out as the spouse of that other person. Other statutes 
provide exceptions. For example, a surviving spouse who remarries after 
age 57 may continue to receive DIC under 38 U.S.C. Sec.  103(d) and, 
under 38 U.S.C. Sec.  2402, a surviving spouse does not lose 
eligibility for interment in a national cemetery due to remarriage.
    Section 2(a) of the draft bill would modify the definition of 
``surviving spouse'' for all VA purposes to remove the requirement that 
a surviving spouse must not be remarried (or must not have lived with 
another person and held him/herself out as a spouse).
    Section 2(b) of the draft bill would make conforming amendments to 
various provisions of title 38, including section 5120, which currently 
provides that a postal worker may not deliver a benefit check to a 
surviving spouse whom the postal worker believes has remarried. VA 
cannot support this bill because it is overly broad, would be very 
costly, and would overburden VA's survivor benefit programs. VA does 
not oppose amending or rescinding 38 U.S.C. Sec.  5120 as it appears to 
be largely obsolete; VA benefits are now directly deposited into 
beneficiaries' bank accounts.
    Removing the general requirement that surviving spouses must not be 
remarried would have a significant workload and cost impact on all VA 
survivor benefit programs (pension, DIC, Dependents Educational 
Assistance, loan guaranty). For example, currently for survivors' 
pension to be payable, the surviving spouse must not be remarried, 
unless the marriage is voided or annulled. Because there is currently 
no provision allowing surviving spouses to remarry and maintain 
eligibility, the general definition at section 101(3) as well as the 
provision for voided or annulled marriages at section 103(d)(1) 
currently apply to such surviving spouses. Removing the requirement 
rendering ineligible surviving spouses who have remarried would result 
in significant increases in both mandatory and discretionary costs, and 
the increased workload would pose major program implementation 
challenges. There would be a similar impact on DIC workload and 
entitlements. Currently, under section 103(d)(2)(B), surviving spouses 
may remarry after age 57 and retain entitlement to DIC and ancillary 
benefits. Surviving spouses who have not yet attained age 57 may regain 
entitlement to DIC if the remarriage terminates by death or divorce. We 
believe that these existing provisions strike the appropriate balance 
between extending DIC benefits to survivors and maintaining program 
viability.
    An estimate of the costs that would be associated with enactment of 
this bill is not available at this time.

                                 -------
             Prepared Statement of Mr. Patrick K. Hallinan
                              INTRODUCTION
    Chairman Abraham, Ranking Member Titus, and distinguished members 
of the Subcommittee, thank you for the opportunity to provide the 
Department of the Army's views on the Medal of Honor Legacy Act.
    Arlington National Cemetery is a unique and iconic place devoted to 
those individuals who made a significant life commitment of service to 
the defense of our Nation in the armed services. Arlington National 
Cemetery was originally established as a National Cemetery for 
``Soldiers who die in the service of the country.'' Eligibility has 
changed through time but always honored individuals who made a 
significant life commitment of service. These heroes served in every 
war or conflict since the founding of our Nation. Arlington National 
Cemetery maintains the honor and dignity of each graveside service 
while hosting approximately 4 million guests annually. This duality of 
purpose brings the sacrifices of those buried at Arlington National 
Cemetery closer to the American people. On behalf of the cemetery and 
the Department of the Army, I express our appreciation for the support 
that Congress has provided over the years.
                   THE CEMETERY'S ELIGIBILITY HISTORY
    In May 1864, Arlington National Cemetery was established as one of 
the first 12 National Cemeteries as a place to inter ``Soldiers who die 
in the service of the country.'' Eligibility has significantly expanded 
over time to include all former members of the Armed Forces whose last 
service terminated honorably as well as their eligible dependents.
                       MEDAL HONOR OF LEGACY ACT
    The proposed Medal of Honor Legacy Act legislation as drafted, 
would direct the Secretary of the Army to reserve a certain number of 
burial plots at Arlington National Cemetery for individuals who have 
been awarded the Medal of Honor, and for other purposes.
    The Army understands that the intent of the proposed legislation is 
to honor the recipients of the Medal of Honor; however, the legislation 
as drafted does not address broader concerns of eligibility to preserve 
the life of the cemetery well into the future. This Bill will 
reestablish gravesite reservations that were eliminated by Congress in 
December 2010. Reservation of gravesites for one specific group will 
ultimately exclude persons who also went above and beyond in their 
service to our Nation, including those who pay the ultimate sacrifice 
and die in the defense of our nation.
    Currently there are a total of 3,497 Medal of Honor recipients from 
all conflicts, 77 of those are living recipients. At present, there are 
406 Medal of Honor recipients interred throughout the more than 70 
sections of Arlington National Cemetery. Burial decisions are 
ultimately the personal preferences of the deceased and their family; 
we should not assume they will all choose interment at Arlington 
National Cemetery. Based on past history, we are confident that if 
asked, most living recipients would prefer to be buried among comrades 
with whom they served.
    The present rate of interment and inurnment coupled with the 
current inventory of available gravesites and niches (which includes 
the nearly complete Millennium project but does not include the 
unfunded Southern Expansion project) indicates that Arlington National 
Cemetery will run out of space for first interments or inurnments in 
the mid-2030s. The impact of this legislation may result in 
unavailability of gravesites for future servicemembers killed in 
action.
                               CONCLUSION
    The Army understands the general intent of the legislation, 
however, the bill does not address the broader question of how long 
does our Nation want Arlington National Cemetery to remain an open and 
active cemetery. The ability to redefine eligibility, with the 
possibility of extending beyond our current borders to gain more 
contiguous space, will allow the Army to ensure the cemetery remains 
available for first interments for our Nations heroes well into the 
future. We must take a holistic approach to solve this issue, which 
will require extensive coordination with the Military Services, 
Veterans Service Organizations, Advisory Committee on Arlington 
National Cemetery, and Congress.
    Chairman Abraham and Ranking Member Titus, this concludes my 
testimony. I will gladly respond to any questions that you or the 
subcommittee members may have.

                                 -------
                    Prepared Statement of Carl Blake
    Chairman Abraham, Ranking Member Titus, and members of the 
Subcommittee, Paralyzed Veterans of America (PVA) would like to thank 
you for the opportunity to provide our views on pending legislation 
before the Subcommittee.
Draft Bill: Special Compensation for Veterans with the Loss or Loss of 
                         Use of Creative Organs
    PVA supports the draft bill ``To amend title 38, United States 
Code, to pay special compensation to certain veterans with the loss or 
loss of use of creative organs.'' This bill would provide eligible 
veterans with two lump-sum payments of $10,000. To be eligible a 
veteran must already be in receipt special monthly compensation (SMC) 
subsection (k). These payments would not be paid during the same fiscal 
year.
    When a veteran has a loss of reproductive ability due to a service-
connected injury, they must bear the total cost for any procedures they 
attempt to have children. It is often the case that they cannot afford 
family building services. For many veterans procreative services have 
been secured in the private sector at great financial and personal 
cost. For those wishing to adopt, or who may only have this option to 
start a family, the prohibitive costs serve as further reminder that 
the gravity of what was sacrificed in service is neither understood by 
Congress nor truly compensated.
    From 2001 to 2013, 1,367 service members suffered a genitourinary 
injury. \1\ Thousands more suffered traumatic brain injuries (TBI) or 
spinal cord injuries (SCI/D) that have compromised or ended the ability 
to conceive children naturally. The Department of Veterans Affairs (VA) 
is limited, and in some cases prohibited, from providing health and 
financial services that fully meet the needs of these veterans. \2\
---------------------------------------------------------------------------
    \1\ Dismounted Complex Injury Task Force, ``Dismounted Complex 
Blast Injury: Report of the Army Dismounted Complex Injury Task 
Force,'' I (June 18, 2011), pg 16, http://armymedicine.mil/Documents/
DCBI-Task-Force-Report-Redacted-Final.pdf
    \2\ https://www.gpo.gov/fdsys/pkg/STATUTE-106/pdf/STATUTE-106-
Pg4943.pdf
---------------------------------------------------------------------------
    We believe this bill will ease a veteran's financial burden and 
make possible the use of assisted reproductive technologies (ART), 
gestational surrogacy, and adoption. Veterans should have the option to 
build a family by whatever means is right for them. A compensation 
payment of $20,000 will be especially beneficial to veterans utilizing 
ART. \3\ For many veterans ART is not an option, be it for medical 
reasons or religious objections. Those building their families through 
adoption or surrogacy will feel partial financial relief. It is 
important to note that the average cost of a domestic single child 
adoption is $15,000-$40,000. \4\ Additionally, the cost of gestational 
surrogacy can range from $60,000-$120,000. \5\ Clearly, this 
legislation will not offset this high cost, but it is a meaningful step 
forward.
---------------------------------------------------------------------------
    \3\ American Society for Reproductive Medicine, www.asrm.org/
detail.aspx?id=3023
    \4\ Child Welfare Information Gateway. (2011). ``Costs of 
adopting.'' Washington, DC. U.S. Department of Health and Human 
Services, Children's Bureau.
    \5\ ConceiveAbilities surrogacy agency, www.conceiveabilities.com/
parents/surrogacy-cost. U.S. News & World Report, http://
money.usnews.com/money/blogs/my-money/2013/10/21/surrogacy-financing-
how-to-afford-that-60k-price-tag
---------------------------------------------------------------------------
    PVA has long advocated that procreative services be included in the 
medical benefits package of VA. If a veteran has a loss or loss of use 
of reproductive organs due to service they ought to be restored to the 
fullest extent possible. While the argument is made that the (k) award 
covers this loss, it does not meet the underlying intent to make 
veterans whole who have experienced this catastrophic injury. Veterans 
with a reproductive injury occupy uncertain space at VA. Their quality 
of life is not restored like a prosthetic leg for an amputee, or a 
service dog for the blind. Their loss is, in part, identity. For most 
young, newly injured veterans, the reality of compromised or limited 
sexual health is a life changing loss. \6\ Years later, rehabilitated 
and adjusted to a civilian life, veterans may desire for themselves 
that which they served to protect for us-family.
---------------------------------------------------------------------------
    \6\ Grady, D. (2015, December). The New York Times. http://
www.nytimes.com/2015/12/07/health/penis-transplants-being-planned-to-
heal-troops-hidden-wounds.html
---------------------------------------------------------------------------
    PVA thanks the Subcommittee for considering this draft bill. We 
appreciate the Subcommittee staff continuing to pursue solutions for 
veterans who wish to start a family, but who are currently denied 
options by law. This bill is a desperately needed step in addressing 
the needs of veterans with reproductive injuries.
              H.R. 3715, the ``Final Farewell Act of 2015"
    PVA supports H.R. 3715, the ``Final Farewell Act of 2015.'' This 
legislation would provide the ability to hold interment or funeral 
services on weekends for religious or cultural reasons in national 
cemeteries or State veteran cemeteries receiving federal grants. This 
bill seems perfectly reasonable and should receive swift consideration 
and approval.
         H.R. 3936, the ``Veteran Engagement Teams (VET) Act''
    PVA supports the pilot program proposed by H.R. 3936, the ``Veteran 
Engagement Teams (VET) Act.'' Bringing veterans face-to-face with VA 
employees and knowledgeable Veteran Service Organization (VSO) 
representatives will better equip claimants with the knowledge and 
information needed to submit accurate claims. Veterans often attempt to 
navigate the claims process with little or no guidance. This 
unfortunately leads many times to increased processing times and hold-
ups due to avoidable errors in the claim submission. Giving the 
claimant the opportunity to engage with VA employees and determine what 
exactly is preventing a final decision will greatly expedite 
resolution. Additionally, events such as these held in the community 
tend to capture veterans who otherwise might not realize they have a 
potential claim or claims, such as homeless veterans. Recognizing that 
not all claims can be resolved on the spot at a community event, this 
program would at least help alleviate one of the biggest frustrations 
claimants have by giving them an explanation of what he or she needs to 
do next in order to resolve the claim.
     H.R. 4087, the ``Fair Treatment for Families of Veterans Act''
    PVA supports H.R. 4087, the ``Fair Treatment for Families of 
Veterans Act.'' This bill provides for changes to the effective date of 
reductions and discontinuances of certain compensation. Current law 
requires that compensation, dependency and indemnity compensation, or 
pension benefits cease on the last day of the month before the 
recipient marries, remarries, or dies. In the case of a recipient's 
death, this circumstance creates a particular hardship for the next of 
kin. When a payee passes away, the distribution for that month must be 
paid back to VA. In most cases, that money has already been spent on 
monthly bills, leaving the families scrambling to produce the cash owed 
when VA sends the bill. This proposal would change the effective date 
of a reduction or discontinuance of benefits to the last day of the 
month during which the event occurs. Alleviating this unjust hardship 
for families who recently lost a loved one is a positive change.
  H.R. 4757, Eligibility for Headstones, Markers, and Medallions for 
 Deceased Individuals Awarded the Medal of Honor and Buried in Private 
                              Cemeteries''
    This bill requires the Secretary upon request to signify the 
deceased's status as a Medal of Honor recipient when furnishing a 
headstone, marker or medallion. This notation on the gravestone is 
appropriate for those who receive our country's highest honor and will 
undoubtedly be meaningful to the veteran's family and legacy. PVA 
strongly supports this legislation and sees this as an appropriate 
honor and recognition for those who have distinguished themselves with 
such gallantry in combat.
 H.R. 4758, Award of the Presidential Memorial Certificate to Certain 
Deceased Members of the Reserve Components of the Armed Forces and the 
                   Reserve Officers' Training Corps''
    This proposal brings parity to all those eligible for internment in 
our national cemeteries with regard to receiving a Presidential 
Memorial Certificate. We see no reason why a person should be afforded 
the honor of being buried in one of our national cemeteries and not 
receive this corresponding symbol of our country's thanks. PVA supports 
this legislation.
   H.R. 4759, Transportation Costs for Certain Deceased Veterans to 
    Veterans' Cemeteries Owned by a State or Tribal Organization.''
    H.R. 4759 proposes to expand the payment for transportation of a 
deceased veteran's remains to not only include national cemeteries, but 
also cemeteries owned by States or tribal organizations. PVA fully 
supports the intent of this bill; however, we feel the way it is 
structured may inadvertently limit the original benefit for transport 
to a national cemetery.
    The proposed amended language limits payment to the cost associated 
with transporting a veteran to the closest cemetery to the deceased's 
last place of residence, whether that be a State, Tribal, or national 
cemetery. If a State or Tribal cemetery is closer than the national 
cemetery for a particular veteran, he or she is no longer compensated 
for the transport to a national cemetery. The scenario becomes more 
problematic if the closest cemetery is owned by a Tribal organization, 
and the veteran is in no way affiliated with such Tribe. The optimal 
solution would be to remove Section 1(a)(2)(B) and leave the original 
payment provision in 38 U.S.C. 2308(a) untouched.
 H.R. 4782, the ``Veterans' Compensation Cost-of-Living Adjustment Act 
                                of 2016"
    PVA fully supports H.R. 4782, the ``Veterans' Compensation Cost-of-
Living Adjustment Act of 2016,'' that would increase, effective as of 
December 1, 2016, the rates of compensation for veterans with service-
connected disabilities and the rates of dependency and indemnity 
compensation (DIC) for the survivors of certain disabled veterans. This 
would include increases in wartime disability compensation, additional 
compensation for dependents, clothing allowance, and dependency and 
indemnity compensation for children.
    However, consistent with our position in the past, PVA cannot 
support the rounding down of increases in compensation. While our 
economy has begun to improve, many veterans continue to struggle, their 
personal finances affected by rising costs of essential necessities to 
live from day to day and maintain a certain standard of living. Many 
veterans and their families depend on their compensation. While this 
may be a small amount, any reduction can have a critical impact, 
especially when compounded over time, on low-income veterans.
   Draft Bill: To Improve Consideration of Evidence by the Board of 
                           Veterans' Appeals
    We support this proposed legislation. Current law allows a claimant 
to submit new evidence after submitting a substantive appeal. Unless 
the claimant submits a request in writing to have the Agency of 
Original Jurisdiction (AOJ) review it, the Board of Veterans' Appeals 
(Board) reviews it in the first instance. The effect of this 
legislation would be to eliminate this choice after the appeal has been 
certified to the Board. This change would help to prevent unnecessary 
delays that result from claimants removing their claim from the Board 
and returning it to the AOJ for further review.
    We also support the 180-day turn around requirement for AOJ review 
of the new evidence proposed in subsection (e)(2)(A). Ensuring that 
when a veteran submits new evidence the claim does not languish ad 
infinitum is important. We do offer, however, two modifications that we 
believe would be helpful. With regard to the time frame discussed in 
subsection (e)(2)(B), we propose that it be shortened to 60 days. Given 
that the AOJ would have just completed a full review of the claim, it 
is unreasonable to suggest that another 180 days is necessary to 
complete certification. An additional provision should also be included 
in this subsection indicating that the appeal need not be certified if 
the issue on appeal is resolved by a favorable decision.
             Draft Bill: The ``Medal of Honor Legacy Act''
    As burial space in Arlington National Cemetery grows thin, this 
bill would preserve an allocation of plots for Medal of Honor 
recipients. PVA supports this legislation. We believe there are no more 
deserving veterans to have dedicated space on the hallowed ground that 
is Arlington than those who have been awarded the nation's highest 
award for valor.
              Draft Bill: The ``Love Lives On Act of 2016"
    PVA fully supports this legislation, as we have consistently stated 
that no eligible survivors should be penalized for remarriage. At the 
very least, equity with beneficiaries of other federal programs should 
govern Congressional action for this deserving group. This proposed 
legislation eliminates completely the inequitable repercussions that 
survivors endure when they choose to remarry. We also support the 
bill's attempt to apply a consistent definition of surviving spouse 
throughout Title 38 which does not contemplate the surviving spouse's 
subsequent marital status.
    This concludes PVA's statement for the record. We would be happy to 
answer any questions for the record that the Committee may have.
Information Required by Rule XI 2(g)(4) of the House of Representatives
    Pursuant to Rule XI 2(g)(4) of the House of Representatives, the 
following information is provided regarding federal grants and 
contracts.
                            Fiscal Year 2016
    Department of Veterans Affairs, Office of National Veterans Sports 
Programs & Special Events - Grant to support rehabilitation sports 
activities - $200,000.
                            Fiscal Year 2015
    Department of Veterans Affairs, Office of National Veterans Sports 
Programs & Special Events - Grant to support rehabilitation sports 
activities - $425,000.
                            Fiscal Year 2014
    No federal grants or contracts received.
                     Disclosure of Foreign Payments
    Paralyzed Veterans of America is largely supported by donations 
from the general public. However, in some very rare cases we receive 
direct donations from foreign nationals. In addition, we receive 
funding from corporations and foundations which in some cases are U.S. 
subsidiaries of non-U.S. companies.

                                 -------
                  Prepared Statement of Aleks Morosky
                            WITH RESPECT TO
H.R. 3715, H.R. 3936, H.R. 4087, H.R. 4757, H.R. 4758, H.R. 4759, H.R. 
                      4782, and Draft Legislation
    MR. CHAIRMAN AND MEMBERS OF THE SUBCOMMITTEE:
    On behalf of the men and women of the Veterans of Foreign Wars of 
the United States (VFW) and our Auxiliaries, thank you for the 
opportunity to offer our thoughts on today's pending legislation.

    H.R. 3715, Final Farewell Act of 2015

    The VFW supports this legislation, which would allow the Department 
of Veterans Affairs (VA) to permit weekend burials at National Veterans 
Cemeteries, when requested by the veteran's family for religious or 
cultural reasons. Additionally, any grant to assist a state in 
establishing a veterans' cemetery would require the same. We believe 
this is a perfectly reasonable accommodation, and note that National 
Veterans Cemeteries already permit weekend burials on weeks when a 
federal holiday falls on a Monday or a Friday.

    H.R. 3936, Veteran Engagement Teams (VET) Act

    The VFW supports this legislation to establish a three year pilot 
program to carry out Veteran Engagement Team events at ten locations 
nationwide. At these events, VA would supply sufficient staff to 
initiate, update, and finalize the completion and adjudication of 
disability claims at locations that are at least 50 miles from VA 
facilities. If the evidence is insufficient to complete the claim, the 
veteran will be informed of what additional information is necessary.
    We are aware that similar ``claims clinics'' are already being held 
in select locations, including Winston-Salem, North Carolina. Our VFW 
service officers at the Winston-Salem Regional Office report that these 
events have been greatly successful. They find that having VA staff 
explain veterans' claims to them in person helps them gain a better 
understanding of the process, leading to higher customer satisfaction. 
Often, claims can be granted on the spot. In one extreme case of how 
valuable these events can be, a homeless female veteran from Winston-
Salem whose claim was stalled in the local appeal process was able to 
produce the piece of evidence needed to grant, resulting in a 
retroactive payment of over $100,000.
    Our service officers were pleased to see that this bill provides 
Veteran Service Organizations access to the events, as the assistance 
we provide is critical to ensuring veterans understand what evidence is 
needed for favorable decisions. Our only suggestion would be to hold 
the events on weekends as well as normal business hours, as many 
veterans who work full time would likely be unable to attend during the 
work week. With this change, we believe this bill would significantly 
improve VA customer service.

    H.R. 4087, Fair Treatment for Families of Veterans Act

    The VFW supports this legislation which would change the effective 
date of a reduction or discontinuance of compensation or pension for 
reason of marriage, remarriage, or death of a payee from the last day 
of the month prior to when the event occurred to the last day of the 
month in which the event occurred. Quite simply, it would offer an 
extra month of benefits, and remove the possibility of unforeseen 
overpayments in those cases. We believe this is the right thing to do, 
so as not to burden grieving families with unnecessary debt.

    H.R. 4757, To amend title 38, U.S.C., to expand the eligibility for 
headstones, markers, and medallions furnished by the Secretary of 
Veterans Affairs for deceased individuals who were awarded the Medal of 
Honor and are buried in private cemeteries.

    This legislation would require VA to furnish upon request to the 
survivors of any deceased Medal of Honor recipient a headstone, marker, 
or medallion signifying that veteran's status as a Medal of Honor 
recipient. The VFW fully supports this legislation, as final resting 
places of those who receive our nation's highest award for valor should 
be granted special recognition.

    H.R. 4758, To amend title 38, United States Code, to authorize the 
award of the Presidential Memorial Certificate to certain deceased 
members of the reserve components of the Armed Forces and certain 
deceased members of the Reserve Officers' Training Corps.

    In 1962, President John F. Kennedy initiated the Presidential 
Memorial Certificate to commemorate the memory of deceased veterans who 
were honorably discharged. The certificates are engraved on paper and 
signed by the president before they are made available by the 
Department of Veterans Affairs for the families and loved ones of 
deceased veterans. It has long been viewed as a sign of gratitude for 
those who served their nation. Since President Kennedy began the 
tradition, every President of the United States has continued it. These 
certificates act as a simple form of recognition to provide comfort for 
those who were close to them while acknowledging the sacrifices made by 
veterans who have passed. It symbolizes a gracious appreciation of the 
veteran by not only the president, but America as a whole. Currently 
this certificate is only awarded to deceased veterans who served on 
active duty and were discharged under honorable conditions.
    The National Cemetery Administration permits Guard and Reserve 
service members as well as Reserve Officers Training Corps candidates 
who die in the line of duty, eligibility for burial at a national 
cemetery. However, these Guard, Reserve and ROTC members are not 
eligible for the Presidential Memorial Certificate. This legislation 
would extend the honor of this certificate to these service members. 
The VFW supports this legislation and believes Guard, Reserve and ROTC 
members must also be properly recognized by our nation's president.

    H.R. 4759, To amend title 38, U.S.C., to authorize the Secretary of 
Veterans Affairs to pay costs relating to the transportation of certain 
deceased veterans to veterans' cemeteries owned by a State or tribal 
organization.

    The VFW supports this legislation, which expands burial benefits to 
veterans interned in a State or tribal cemetery.
    For more than 150 years, our nation has purchased and maintained 
cemeteries to offer our veterans a final resting place that honors 
their brave military service. Currently, VA maintains 133 national 
cemeteries; only 75 of them, however, are able to accept new 
internments. To ensure veterans have burial options within 75 miles to 
their home, VA uses agreements and grants with states, United States 
territories and federally recognized tribal organizations to establish, 
expand, or improve veterans' cemeteries in areas where the National 
Cemetery Administration has no plans to build or maintain a national 
cemetery.
    While VA covers all the transportation expenses for veterans who 
are interred in the nearest national cemetery, VA is not authorized to 
reimburse the next of kin of a veteran who is interred in a State or 
tribal cemetery because the nearest VA national cemetery is not 
accepting new interments or the veteran does not have a national 
cemetery near their home. This bill rightfully expands VA's authority 
to cover the cost of transporting a veteran's remain to their final 
resting place in a State or tribal cemetery.

    H.R. 4782, Veterans' Compensation Cost-of-Living Adjustment Act of 
2016

    The VFW supports this legislation which will increase VA 
compensation for veterans and survivors, and adjust other benefits by 
providing a cost-of-living adjustment (COLA) beginning December 1, 
2016.
    Disabled veterans, along with their surviving spouses and children, 
depend on their disability compensation plus dependency and indemnity 
compensation to bridge the gap of lost earnings caused by the veteran's 
disability. Each year, veterans wait anxiously to find out if they will 
receive a cost-of-living adjustment. There is no automatic trigger that 
increases these forms of compensation for veterans and their 
dependents. Annually, veterans wait for a separate Act of Congress to 
provide the same adjustment that is automatically granted to Social 
Security beneficiaries.
    The VFW continues to oppose the ``rounding down'' of the COLA 
increase. This is nothing more than a money-saving device that comes at 
the expense of veterans and their survivors.

    Draft legislation, To pay special compensation to certain veterans 
with loss or loss of use of creative organs.

    The VFW supports this legislation, which would expand the monthly 
special disability compensation benefits VA provides veterans who have 
lost or lost the use of their reproductive organs as a result of their 
military service.
    Due to the widespread use of improvised explosive devices during 
the wars in Iraq and Afghanistan, both female and male service members 
have suffered from spinal cord, reproductive, and urinary tract 
injuries. Many of these veterans hope to one day start families, but 
their injuries prevent them from conceiving.
    Recognizing the significant impact the loss or loss of use of 
reproductive organs has on veterans, Congress established a special 
monthly compensation to provide additional financial compensation for 
these veterans and for other special circumstances. Currently, veterans 
who have lost or lost the use of their reproductive organs receive an 
additional $103.23 in monthly disability compensation. This legislation 
would increase the amount of financial compensation veterans receive 
for losing the use of their reproductive organs due to their military 
service.
    However, the VFW does not believe financial compensation should be 
offered in lieu of reproductive treatment. VA is currently prohibited 
from providing certain fertility treatments. The VFW strongly supports 
ending the VA ban on the use of assisted reproductive technologies, 
including In Vitro Fertilization. Simply giving veterans compensation 
for reproductive assistance is inadequate on its own to ensure they 
have the care and supportive services they need to successfully achieve 
their dreams of starting a family.
    Additionally, the VFW believes that VA must have the authority to 
provide veterans the fertility treatment options that are best suited 
for their particular circumstances. For that reason, the VFW strongly 
supports H.R., 2257 and H.R. 3365, which expands VA fertility treatment 
options for veterans who have lost the use of reproductive organs as a 
result of their military service.

    Draft legislation, To amend title 38, United States Code, to 
improve the consideration of Evidence by the Board of Veterans' 
Appeals.

    The VFW supports this legislation. Currently, when a veteran files 
an appeal, but submits additional evidence before that appeal is 
certified to the Board, the Agency of Original Jurisdiction (AOJ) must 
review the evidence and, if still unable to grant in full, issue a 
Supplemental Statement of the Case (SSOC) before the appeal can be 
certified. While issues are sometimes granted during this sequence, 
continued denials can add many months to the total time a veteran must 
wait to receive a decision from the Board.
    Under this bill, additional evidence received after submission of 
the Form 9 would be subject to initial review by the Board by default. 
Veterans may still elect to have that evidence reviewed by the AOJ. 
This is important, as some veterans may feel confident that the 
additional evidence they are submitting will allow the AOJ to grant 
their claims in full, without the need to wait years for their appeals 
to reach the Board. If no election is made, however, the additional 
evidence would be reviewed by the Board in the first instance.
    The VFW further supports the provision of the bill that would 
require additional evidence to be reviewed by the AOJ within 180 days 
when the veteran makes that election. We also support the intent of 
requiring the AOJ to certify the appeal within 180 days after the 
review is completed, but would suggest that timeframe be shortened to 
60 days. In our view, one of the logjams in the appeals process is that 
the AOJs take far too long to certify appeals once their work is 
completed. We believe that two months is a reasonable amount of time 
for the AOJ to certify an appeal once it is ready.
    Lastly, we would suggest a minor technical change to subsection 
(a)(2)(B) of section 1, by inserting at the beginning, ``if such review 
does not result in a fully favorable decision.''

    Draft legislation, To reserve a certain number of burial plots at 
Arlington National Cemetery for individuals who have been awarded the 
Medal of Honor.

    Medal of Honor recipients are held in the highest regard by the 
veterans' and military community, and have certainly earned the 
opportunity to be buried in our nation's most hallowed burial grounds--
Arlington National Cemetery. Despite the current expansion of 30,000 
interment slots as part of the Millennium Project and the recent 
acquisition of additional land for burial space, the Arlington National 
Cemetery will eventually reach maximum capacity.
    If that day comes, we must ensure those who are awarded our 
nation's highest award for valor in action against an enemy force are 
reserved a final resting place that honors their service to our nation. 
This legislation rightfully ensures the 77 living Medal of Honor 
recipients and the brave service members that may receive this 
prestigious award in the future are offered that opportunity by setting 
aside 1,000 plots specifically for them. The VFW fully supports this 
legislation.

    Draft Legislation, the Love Lives on Act of 2016

    The Love Lives on Act will redefine the definition of ``surviving 
spouse'' for the purposes of benefits administered by the Secretary of 
Veterans Affairs. In short this bill will eliminate the current 
provisions in law that preclude surviving spouses of military service 
members who remarry from receiving benefits through the Department of 
Veterans Affairs. Currently, a surviving spouse must remain unmarried 
until the age of 57 to qualify for the benefits that were granted to 
them through the death of the service member.
    Surviving spouses, many of whom are young, should not have to 
endure a life of loneliness just so they can continue to receive the 
benefits granted to them through the death of their spouse. The VFW 
supports this legislation.
 Information Required by Rule XI2(g)(4) of the House of Representatives
    Pursuant to Rule XI2(g)(4) of the House of Representatives, the VFW 
has not received any federal grants in Fiscal Year 2016, nor has it 
received any federal grants in the two previous Fiscal Years.
    The VFW has not received payments or contracts from any foreign 
governments in the current year or preceding two calendar years.

                                 <F-dash>
                  Prepared Statement of Paul R. Varela
    Mr. Chairman and Members of the Subcommittee:

    Thank you for inviting DAV (Disabled American Veterans) to testify 
at this legislative hearing, and to present our views on the bills 
under consideration. As you know, DAV is a non-profit veterans service 
organization comprised of 1.3 million wartime service-disabled veterans 
that is dedicated to a single purpose: empowering veterans to lead 
high-quality lives with respect and dignity.
               H.R. 3715, the Final Farewell Act of 2015
    The bill would amend title 38 United States Code, sections 2404 and 
2408 as they pertain to national cemeteries and memorials. The bill 
would authorize the Secretary to conduct interments or funerals, 
memorial services, or ceremonies of deceased veterans at national 
cemeteries during weekends, other than on federal holiday weekends. The 
request for these services would be made by next of kin, and requested 
for religious or cultural reasons.
    Furthermore, any grant made to states in establishing veteran 
cemeteries would require that as a condition of such grants, these 
cemeteries would permit interments or funerals, memorial services, or 
ceremonies of deceased veterans at the cemetery during weekends, other 
than federal holiday weekends.
    DAV does not have a resolution relative to this issue, but would 
not oppose passage of this legislation.
         H.R. 3936, the Veteran Engagement Teams Act (VET Act)
    This bill would require the Secretary Affairs to carry out a three-
year pilot program facilitating ``VET'' events in order to complete 
onsite processing of claims for disability compensation and pension. 
Each month during the first year, these VET events would be held within 
the jurisdiction of 10 Department of Veterans Affairs (VA) regional 
offices (VARO). During the second and third years, the VET events would 
be expanded to 15 VAROs each month. These events would also be 
scheduled during normal business hours and take place at least 50 miles 
away from designated VAROs, thus providing that veterans who live in 
rural areas, who might not otherwise be able to access the VARO, can be 
served.
    The bill would require that a sufficient number of physicians (to 
be available for medical opinions only), veteran service 
representatives, rating veteran service representatives, and other 
personnel be made available at these events to initiate, update, and 
finalize the completion and adjudication of claims. Veterans service 
organizations would also have access to the events for purposes of 
providing assistance to veterans. Under this bill, veterans unable to 
complete the adjudication of a claim at an event would be informed of 
the additional information or actions needed to finalize the claim.
    The bill also encourages collaboration between state, local 
governments, nonprofit organizations and private sector entities to use 
facilities as host sites for these events at no, or nominal cost. 
Services by non-Department physicians in rendering medical opinions 
relating to claims for compensation and pension would also be 
encouraged on a non-compensation basis. Reports to Congress would be 
required and customer satisfaction surveys would be taken to determine 
the effectiveness of this VET pilot program.
    DAV supports H.R. 3936, the Veteran Engagement Teams Act (VET Act), 
in accordance with our National Resolution 001, calling for enhanced 
outreach to ensure that all disabled veterans receive all benefits they 
have earned.
    We look forward to working with Congress toward enactment of this 
legislation.
      H. R. 4087, the Fair Treatment for Families of Veterans Act
    This bill would change the effective date of reductions and 
discontinuances and permit the payment of a full month of VA benefits 
for the month in which a change in beneficiary status occurs.
    If enacted, the effective date of a reduction or discontinuance of 
compensation, dependency and indemnity compensation, or pension would 
commence on the last day of the month during which marriage, 
remarriage, or death occurs, as opposed to the last day of the month 
before such change in beneficiary status.
    The bill would essentially provide for an additional month of 
benefits, covering the entire period of a month for payment purposes 
when there is a change in beneficiary status due to marriage, 
remarriage or death.
    DAV does not have a specific resolution relative to this issue, but 
we look forward to enactment of this reasonable expansion benefiting 
disabled veterans and their survivors.
                               H. R. 4757
    The bill would expand eligibility for the issuance of headstones, 
markers and medallions, furnished by the Secretary for deceased 
individuals to signify their awards of the Congressional Medal of Honor 
(MOH), to include those awarded the MOH posthumously.
    In particular, this eligibility would apply to MOH recipients whose 
remains are buried in private cemeteries and whose service commenced on 
or after April 6, 1917.
    DAV does not have a specific resolution relative to this issue, but 
would not oppose passage of this legislation.
                               H. R. 4758
    The bill would authorize the award of Presidential Memorial 
Certificates to certain deceased members of the reserve components of 
the armed forces and Reserve Officers' Training Corps. The bill would 
also expand eligibility for internment in national cemeteries for this 
group of individuals, dependent upon their military status at the time 
of death.
    The bill would establish eligibility for members of the Reserve 
component of the armed forces, and any member of the Army National 
Guard or the Air National Guard, whose death occurred under honorable 
conditions while the member was hospitalized or undergoing treatment, 
at the expense of the United States, for injury or disease contracted 
or incurred under honorable conditions while the member was performing 
active duty for training, inactive duty training, or undergoing 
hospitalization or treatment at the expense of the United States.
    The bill would also establish eligibility for members of the 
Reserve Officers' Training Corps of the Army, Navy or Air Force when 
death occurs under honorable conditions while the member was attending 
an authorized training camp or on an authorized practice cruise; 
performing authorized travel to or from that camp or cruise; 
hospitalized or undergoing treatment, at the expense of the United 
States, for injury or disease contracted or incurred under honorable 
conditions while the member was attending that camp or on that cruise; 
during associated travel; or undergoing hospitalization or treatment at 
the expense of the United States.
    DAV has no resolution relative to this issue, but would not oppose 
passage of this legislation.
                               H. R. 4759
    The bill would permit the Secretary to cover the costs associated 
with the transportation of deceased veterans, not only to national 
cemeteries, but also to other recognized veterans' cemeteries.
    The bill would define ``covered veterans' cemeteries'' as those 
owned by a state, or a tribal organization in which the deceased 
veteran is eligible to be buried, consistent with the definition 
currently codified in section 3765 (4), of title 38, United States 
Code.
    DAV does not have a resolution relative to this issue, but would 
not oppose passage of this legislation.
H.R. 4782, the Veterans' Compensation Cost-of-Living Adjustment Act of 
                                  2016
    This bill would increase the rates of disability compensation, 
clothing allowance, and Dependency and Indemnity Compensation (DIC), 
effective on December 1, 2016.
    Consistent with DAV Resolution No. 013, which calls on Congress to 
support legislation to provide a realistic increase in disability 
compensation, we support this bill. This bill would authorize an 
increase in the rates of compensation for wounded, ill and injured 
veterans, their survivors and dependents, commensurate with increases 
provided to Social Security recipients.
    While it has become customary for Congress to determine a cost-of-
living adjustment (COLA) in parity with Social Security recipients, it 
is important to note there have been several years in which Social 
Security recipients did not receive a COLA as was the case for 2016. 
Likewise, beneficiaries in receipt of VA compensation and survivor 
benefits did not receive a COLA.
    Furthermore, DAV believes Congress should consider a more accurate 
formula to compensate service-connected veterans, their survivors and 
dependents for wounds, injuries and illnesses sustained during military 
service. DAV members passed Resolution No. 059, which calls on Congress 
to support the enactment of legislation to provide a realistic increase 
in VA compensation rates to bring the standard of living of disabled 
veterans in line with that which they would have enjoyed had they not 
suffered their service-connected disabilities.
    Also, while DAV has always supported legislation that provides 
veterans with a COLA, DAV is adamantly opposed to the practice of 
rounding down COLAs to the nearest whole dollar amount, and we oppose 
the round-down feature in this bill based on DAV Resolution 017.
               Draft Bill - The Medal of Honor Legacy Act
    If enacted into law, the Secretary of the Army would be required to 
reserve 1,000 burial plots at Arlington National Cemetery (ANC) to 
inter individuals who have been awarded the Medal of Honor (MOH). The 
law would also require the Secretary of the Army to submit a report to 
Congress describing the location of the in-ground burial plots that 
have been reserved.
    The MOH is the United States of America's highest military honor, 
awarded for personal acts of valor above and beyond the call of duty. 
Reserving adequate final resting places within ANC is a fitting and 
commendable act that Congress has chosen to undertake. Our country must 
do all that it can to enshrine, commemorate and preserve the legacy of 
service and sacrifice endured by our MOH recipients.
    DAV does not have a specific resolution from our members pertaining 
to this issue, but would not oppose passage of this legislation.
          Discussion Draft - Special Monthly Compensation (u)
    If enacted, the legislation would pay Special Monthly Compensation 
(SMC )(u), to veterans entitled to receive SMC(k) due the loss of, or 
loss of use of creative organs.
    It would direct the Secretary to pay to a veteran entitled to 
SMC(k), two lump-sum special compensation payments, each in the amount 
of $10,000. The second such payment would not occur less than one year 
after the date of the first such payment.
    This special compensation paid would be in addition to disability 
compensation paid to a covered veteran pursuant to subsection (k), 
except that in any month in which the veteran receives a payment of 
SMC(u), the veteran may not also receive disability compensation 
pursuant to subsection (k).
    A covered veteran would be required to submit to the Secretary a 
separate, specific application for each payment of this special 
compensation.
    Covered veterans would encompass those who are paid SMC(k) for the 
anatomical loss of one or more creative organs, or the permanent or 
static loss of use of one or more creative organs.
    This new payment of SMC(u) would apply with respect to veterans who 
receive disability compensation on, or after, the date of enactment of 
this act.
    The bill contemplates one possible option to provide some 
assistance, in the form of compensation, to overcome reproductive 
challenges associated with service-connected disabilities. This 
proposal is not viewed as a comprehensive measure to solve this 
problem. These veterans may require additional services, beyond what 
the two $10,000 payments would cover. More must be done to ensure that 
veterans stricken with wounds, illness and injuries that impede upon 
their natural ability to procreate, receive, to the maximum extent 
possible, the full complement of services and benefits required to 
achieve a desired outcome.
    DAV has no resolution from its members pertaining to lump sum 
payments for the loss, or loss of use of creative organs, but would not 
oppose passage of this legislation. However, if legislation were to be 
enacted to provide for these lump payments, it should not be used to 
supplement, or offset, other forms of payments, or services, that would 
aid wounded, injured and ill veterans in their procreative, or adoptive 
pursuits.
                Discussion Draft - Evidence Development
    This bill would affect consideration of evidence before the Agency 
of Original Jurisdiction (AOJ) and the Board of Veterans' Appeals 
(Board).
    The amendment to subsection (e), of section 7105 of title 38, 
United States Code, would make several fundamental changes to evidence 
submitted or disclosed to VA, upon receipt of a substantive appeal and 
after an appeal has been deemed certified as ready for review by the 
Board.
    DAV opposes this legislation because it would create artificial 
suspense dates; limit an appellant's opportunity to request AOJ review 
of evidence; unnecessarily route uninvestigated appeals directly to the 
Board, thus increasing the potential of otherwise avoidable Board 
remands; attach finality due to a Board's decision on evidence reviewed 
in the first instance, and it fails to address how appellants would be 
made aware of their evidence review options.
    First, the legislation would create artificial suspense dates when 
a claimant, or claimant's representative, requests AOJ review of 
evidence. There is no data to suggest that VA would be able to meet the 
180 day requirement to complete the review of new evidence and also be 
able to certify these appeals to the Board within 180 days after the 
review has been completed. Creating such an arbitrary timeframe to 
perform a review of evidence and certify an appeal back to the Board, 
holds the potential for hasty and substandard processing of these 
appeals by the AOJ to simply meet the standard set forth within this 
proposal.
    Second, the legislation would further limit the opportunity for 
review of evidence that could be considered by the AOJ once an appeal 
was certified to the Board. Appellants, or their representatives, could 
only request AOJ review of evidence during the time when a substantive 
appeal is received and before an appeal is certified to the Board.
    This proposal has the potential to increase otherwise avoidable 
Board remands when issues could have been resolved at the AOJ level. 
Under current law, the appellant, or the appellant's representative, 
may request AOJ review of evidence at any time, as long as the request 
is done in writing. These AOJ reviews would be requested in instances 
in which it is believed the evidence would result in a favorable 
outcome locally, rather than relying on the Board's assessment and 
ultimate determination, thus avoiding the need to continue the appeal.
    Third, the legislation would force more uninvestigated appeals with 
new evidence to the Board for its review in the first instance. Often, 
evidence reviewed by the Board in the first instance is insufficient 
for rating purposes and consequently, requires remand for further 
development, prior to disposition of the appellate issue(s). Providing 
a useful mechanism to seek AOJ review could save appellants 
considerable processing time and unnecessary complications.
    Fourth, the legislation attaches finality due to the Board's review 
of evidence in the first instance. If the Board were to rule on an 
issue based on new evidence, never before seen by the AOJ, assuming the 
Board determined that a denial was in order, the decision on that issue 
would become final, thus jeopardizing precious benefits that may 
otherwise have been allowed at the AOJ level.
    Fifth, the legislation fails to address how appellants would be 
notified of their options and limitations for AOJ review, including 
whether some form of notice would be required.
    Simply closing the record, or limiting AOJ review of evidence with 
the intention of getting the information before the Board in the first 
instance has several inherent consequences as described. For these 
reasons, DAV would be opposed to this legislation if it were to be 
introduced, because of its potential detrimental effects on the due 
process rights of veterans.
               Draft Bill - the Love Lives On Act of 2016
    This bill would modify the definition of a surviving spouse and 
authorize entitlement to certain benefits, now precluded due to 
remarriage. Under this proposal, remarriage would not impose an 
outright bar to certain benefits, including service-disabled veterans 
insurance; issuance of headstones, markers and burial receptacles; 
interment in national cemeteries; and, receipt of survivor benefits.
    DAV does not have a resolution specific to this issue; we would not 
oppose passage of this legislation.
    Mr. Chairman, this concludes DAV's testimony. Thank you for 
inviting DAV to testify at today's hearing. I would be pleased to 
address any questions related to the bills being discussed in this 
testimony.

                                 <F-dash>
                 Prepared Statement of Elizabeth Davis
    I'd like to take a moment and thank Chairman Abraham and Ranking 
Member Titus for this opportunity to testify on behalf of the Love 
Lives on Act for our military surviving spouse community. With me in 
attendance today are several of the widows of our nation's heroes. 
Although I will only be speaking about my own personal experience, each 
one of these individuals has a heartbreaking story of sacrifice for our 
nation.
    My name is Elizabeth Davis. I'm a 29 year old mother, nurse, and 
widow to my Marine. My husband, 1STLT Matthew Davis, was killed on 7 
November, 2014. While Matt was serving as the officer of the day on 
regimental duty he was struck and killed by a fellow 2/5 Marine who was 
drunk driving and evading the police. Matt was a selfless, gregarious, 
giant of a man with a sense of humor as big as he was. Nothing will 
ever change my feelings for him, even though I know he will never be 
coming back. The night I found out he was killed I actually had a heart 
attack when our best friend showed up in his dress blues to deliver the 
news in the early hours of the morning. I quite literally will bear the 
scars on my heart from this news for the rest of my life. After 
recovering from the shock of being widowed I decided I was going to 
honor my husband by devoting my time and energy into making this rough 
journey easier in any way possible for other military widows. I started 
looking for ways to help widows provide for themselves and their 
families when I moved back to Virginia.
    The first step was to ensure that Virginia accepted the DoD's 
definition of Gold Star spouse, making sure that we honored the 
sacrifices of those killed in the line of duty as well as those killed 
in action. With the help of my Delegate, HB98 was introduced and passed 
through the Virginia House of Delegates and Senate. Recently, I was 
granted the opportunity to discuss how the culture of alcohol in the 
Marine Corps impacted my family at a town hall with the Commandant of 
the Marine Corps, General Neller. I've also remained active on the 
Stafford County Armed Services Memorial Committee. My long term goal is 
to ensure that our widowed community, which already has given so much 
for this great nation, faces no additional or unnecessary hardship.
    The next step, which I pray you will support, is to improve the 
lives of this very small but important community. We are seeking repeal 
and amendment of the age stipulation through the Love Lives On Act. 
Currently, as the widow/widower of a fallen service member, you may 
remarry and retain your benefits after the age of 57. With the vast 
majority of our heroes being young and leaving behind spouses who are 
equally young, it is unreasonable to expect the surviving spouse not to 
seek out happiness and love again well before he or she is 57. As it 
currently stands, I and the other survivors in this room have no 
incentive to move on with our lives and rebuild our families. Rather, 
we are strongly bound to remain single parents with incomplete families 
in order to retain the benefits that our husbands earned by dying for 
our country.
    The full impact of the current limitations is felt not only by the 
surviving spouse, but also the children of our fallen. These benefits 
that have been earned at the cost of loss of life for country are 
necessary in maintaining the needs of the spouse and all surviving 
children. This program is vital because it provides the ability to have 
a safe home and food on the plate for the families who are left behind. 
In almost every case of a widow or widower, our nation puts the 
draconian decision of choosing to seek love again or being pragmatic 
with our finances. This choice is ultimately made for us, hindering the 
very freedoms our spouses gave their lives for, under the current 
guidelines.
    Why would anyone in this room choose to remarry when we could 
receive these benefits but date a new person in perpetuity? Amending 
the statute would cement the belief in our service members that the 
United States cares what happens to them as individuals. Not only is 
the sacrifice and commitment that they made in dying for our country 
forever, but so too is the commitment of the United States to their 
families should they perish. The risks and lifestyle associated with 
our nation's military can be unpredictable, but providing benefits for 
those left behind should not be. We should not be punished for seeking 
out the love and happiness that our spouses would want us to have. As 
the spouse we deserve to try to heal and be happy, and for the children 
left behind they deserve a stable loving home where their parents are 
legally recognized as a family unit, without repercussion of the loss 
of necessary income.
    Through your vote you can make a positive change for the families 
of our fallen heroes. By continuing to provide benefits to surviving 
spouses, families will heal and produce children that will grow up 
knowing that service has meaning. For us, as widows, life truly is too 
short. We fully grasp that concept often in our twenties and thirties, 
when our peers won't have to face these kinds of hardships for decades. 
Please enable us to have a choice in marriage before the age of 57. The 
widows and children of the fallen were handed a folded flag on behalf 
of a grateful nation. In that short moment upon handing the flag over- 
there is no ``if'' or ``but'' when it comes to the commitment our 
husbands showed this great nation. I have the utmost faith that the men 
and women in this room will do their best to honor that oath paid for 
in blood, well before we are 57.

                                 <F-dash>
                 Prepared Statement of Edward G. Lilley
    Chairman Abraham, Ranking Member Titus, and distinguished members 
of the Subcommittee on Disability and Memorial Affairs (DAMA), on 
behalf of National Commander Dale Barnett and The American Legion; the 
country's largest patriotic wartime service organization for veterans, 
comprising over 2 million members and serving every man and woman who 
has worn the uniform for this country; we thank you for the opportunity 
to testify regarding The American Legion's position on the pending 
veterans' legislation.
                 H.R. 3715: Final Farewell Act of 2015
    To amend title 38, United States Code, to direct the Secretary of 
Veterans Affairs to permit interments, funerals, memorial services, and 
ceremonies of deceased veterans at national cemeteries and State 
cemeteries receiving grants from the Department of Veterans Affairs 
during certain weekends if requested for religious reasons.
    Since World War I, the United States has been providing burial 
benefits to eligible veterans and servicemembers who are on active 
duty. This was created as a final tribute to those who have served 
their country honorably. Today, many veterans' families are faced with 
extreme hardship in meeting the requirements of a Monday to Friday 
burial in a national cemetery. By expanding the days of interment for 
veterans and their spouses in national cemeteries, the inconvenience of 
added time and funding should be with the Government that drafted the 
services of these veterans rather than to inconvenience the next-of-kin 
of veterans' families by delaying interment on weekends.
    H.R. 3715 would direct the Department of Veterans Affairs to allow 
for the interment, funeral, memorial service, or ceremony of a deceased 
veteran at a national cemetery during weekends, other than federal 
holiday weekends, upon the request of the veteran's next-of-kin made 
for religious or cultural reasons. The American Legion believes that 
the National Cemetery Administration expand its interment schedule to 
better accommodate the needs of deceased veterans' families. \1\
---------------------------------------------------------------------------
    \1\ American Legion Resolution No. 21 (2001): Expand The Interment 
Capability Of The National Cemetery Administration

---------------------------------------------------------------------------
The American Legion supports H.R. 3715.

              H.R. 3936: The Veterans Engagement Teams Act
    To direct the Secretary of Veterans Affairs to carry out a pilot 
program under which the Secretary carries out Veteran Engagement Team 
events where veterans can complete claims for disability compensation 
and pension under the laws administered by the Secretary, and for other 
purposes.

    H.R. 3936 would dramatically help veterans receive the benefits 
they have earned by addressing the barriers between the Department of 
Veterans Affairs (VA) and the veterans they serve within the community 
by sending VA employees into the field to assist with their claims 
processing. This bill, much like The American Legion's Veterans 
Benefits Centers (VBC's) established as a result of the VA health care 
crisis in Phoenix, Arizona would allow VA to provide one-on-one 
assistance to veterans and their families at community events.
    During the VBC's, The American Legion assisted more than 3,000 
veterans. Services included resolving problems such as veteran 
homelessness, long-wait times for VA health care, and aiding veterans 
who were not able to receive their earned benefits in a timely manner. 
The American Legion urges VA to address all claims, to include its 
growing inventory of appeals in an expeditious and accurate manner. \2\
---------------------------------------------------------------------------
    \2\ American Legion Resolution No. 28 (2015): Department of 
Veterans Affairs Appeals Process

---------------------------------------------------------------------------
The American Legion supports H.R. 3936.

         H.R. 4087: Fair Treatment for Families of Veterans Act
    To amend title 38, United States Code, to adjust the effective date 
of certain reductions and discontinuances of compensation, dependency 
and indemnity compensation, and pension under the laws administered by 
the Secretary of Veterans Affairs.

    H.R. 4087 would change a federal law that requires a veteran's 
family to repay benefits dispensed during the month upon a veterans' 
death, remarriage, or marriage. Currently, veterans' benefits cease on 
the last day of the month before a veterans death. This bill would 
extend the veterans benefits to the last day of the month during which 
a veteran dies. This bill addresses a slight change in language with 
respect to the discontinuance of VA benefits for veterans. The proposed 
language adjustment would favor the recipient of VA benefits.
    The American Legion urges the Department of Veterans Affairs (VA) 
to address all claims, to include its growing inventory of appeals in 
an expeditious and accurate manner. \3\
---------------------------------------------------------------------------
    \3\ American Legion Resolution No. 28: (2015): Department of 
Veterans Affairs Appeals Process

---------------------------------------------------------------------------
The American Legion supports H.R. 4087.

                               H.R. 4757
    To amend title 38, United States Code, to expand the eligibility 
for headstones, markers, and medallions furnished by the Secretary of 
Veterans Affairs for deceased individuals who were awarded the Medal of 
Honor and are buried in private cemeteries.

    The Medal of Honor (MOH) is the United States of America's highest 
military honor, awarded for personal acts of valor above and beyond the 
call of duty. H.R. 4757 directs the Department of Veterans Affairs (VA) 
to furnish at a private cemetery, and upon request, a headstone, 
marker, or medallion that signifies the status of an eligible veteran 
who served in the Armed Forces on or after April 6, 1917, as a Medal of 
Honor recipient.
    If the VA furnished a headstone, marker, or medallion for a 
deceased veteran that does not signify his or her status as a Medal of 
Honor recipient, the VA shall upon request replace that headstone, 
marker, or medallion with one that signifies the deceased's status as a 
Medal of Honor recipient. The American Legion fully appreciates the 
service of those awarded the Medal of Honor and supports any 
legislation that would expand the benefits to Medal of Honor 
recipients. \4\
---------------------------------------------------------------------------
    \4\ American Legion Resolution No. 17 (2015): Honoring Those Who 
Have Earned the Medal of Honor

---------------------------------------------------------------------------
The American Legion supports H.R. 4757.

                               H.R. 4758
    To amend title 38, United States Code, to authorize the award of 
the Presidential Memorial Certificate to certain deceased members of 
the reserve components of the Armed Forces and certain deceased members 
of the Reserve Officers' Training Corps.

    In March 1962, President John F. Kennedy began administering 
Presidential Memorial Certificates (PMC's) and this program has been 
continued by all subsequent Presidents. The PMC is a gold-embossed 
paper certificate bearing the official signature of the President of 
the United States. It honors the memory of a deceased honorably 
discharged veteran and expresses the country's grateful recognition of 
his or her service in the Armed Forces.
    H.R. 4758 would amend Title 38, United States Code, Section 112 (a) 
entitled Presidential Memorial Certificate Program by including any 
member of a Reserve component of the Armed Forces, and any member of 
the Army or Air National Guard, whose death occurs under honorable 
conditions while such member is hospitalized or undergoing treatment 
and the expense of the United States, for injury or disease contracted 
or incurred under while such member is performing active duty training. 
\5\
---------------------------------------------------------------------------
    \5\ 38 U.S. Code Sec.  2402 - Persons eligible for interment in 
national cemeteries
---------------------------------------------------------------------------
    The American Legion urges Congress and the Department of Defense to 
extend allowances and privileges to the National Guard and Reserves 
involved in homeland security and other missions so as to more closely 
approximate those of the active force. \6\
---------------------------------------------------------------------------
    \6\ American Legion Resolution No. 182 (2014): Support for Military 
Quality of Life Standards

---------------------------------------------------------------------------
The American Legion supports H.R. 4758.

                               H.R. 4759
    To amend title 38, United States Code, to authorize the Secretary 
of Veterans Affairs to pay costs relating to the transportation of 
certain deceased veterans to veterans' cemeteries owned by a State or 
tribal organization.

    Currently, the Secretary may pay, in addition to any amount paid 
pursuant to Title 38, U.S.C., Section 2302 or 2307, the cost of 
transportation of the deceased veteran described in subsection (b) for 
burial in a national cemetery. Such payment shall not exceed the cost 
of transportation to the national cemetery nearest the veteran's last 
place of residence in which burial space is available. \7\ 
Nevertheless, this statute limits the payment to the transportation of 
veterans to those being buried in National Cemeteries and The American 
Legion supports action to provide, when an eligible veteran dies in a 
state veterans hospital or nursing home, the Secretary of Veterans 
Affairs shall pay for the cost of transporting the remains to the place 
of burial determined by the family. \8\ This legislation expands 
payment to those eligible veterans who are buried in State or tribal 
cemeteries.
---------------------------------------------------------------------------
    \7\ 38 U.S. Code Sec.  2308 - Transportation of deceased veteran to 
a national cemetery
    \8\ American Legion Resolution No. 22 (2014): National Cemetery 
Administration

---------------------------------------------------------------------------
The American Legion supports H.R. 4759.

H.R. 4782: The Veterans' Compensation Cost-of-Living Adjustment Act of 
                                  2016
    To increase, effective as of December 1, 2016, the rates of 
compensation for veterans with service-connected disabilities and the 
rates of dependency and indemnity compensation for the survivors of 
certain disabled veterans, and for other purposes.

    H.R. 4782 will provide a Cost of Living Allowance (COLA) effective 
December 1, 2016. Disability compensation and pension benefits awarded 
by the Department of Veterans Affairs (VA) are designed to compensate 
veterans for medical conditions due to service or who earn below an 
income threshold. With annual increases to costs of living, it is only 
appropriate that veterans' benefits increase commensurate with those 
increases.
    For nearly 100 years, The American Legion has advocated on behalf 
of our nation's veterans, to include the awarding of disability 
benefits associated with chronic medical conditions that manifest 
related to selfless service to this nation. Annually, veterans and 
their family members are subjects in the debate regarding the annual 
cost of living adjustment (COLA) for these disability benefits. For 
these veterans and their family members, COLA is not simply an acronym 
or a minor adjustment in benefits; instead, it is a tangible benefit 
that meets the needs of the increasing costs of living in a nation that 
they bravely defended.
    H.R. 4782 is designed to allow for a COLA for VA disability 
benefits. During The American Legion's National Convention in August 
2014, The American Legion adopted Resolution No. 18. Within this 
resolution, The American Legion supports legislation ``to provide a 
periodic cost-of-living adjustment increase and to increase the monthly 
rates of disability compensation.'' \9\
---------------------------------------------------------------------------
    \9\ American Legion Resolution No. 18 (2014): Department of 
Veterans Affairs Disability Compensation
---------------------------------------------------------------------------
    Within Section 2 of the bill, it is noted that ``each dollar amount 
increased under paragraph (1), if not a whole dollar amount, shall be 
rounded to the next lower whole dollar amount.'' The American Legion 
does not support the rounding down of any benefit; through rounding 
down the benefit, the veterans' benefits are diluted.

    In order for The American Legion to support H.R. 4782, The American 
Legion asks for Congress to remove Section 2 of the bill and allow for 
veterans to receive the full benefits awarded due to their service.
              Discussion Draft: Medal of Honor Legacy Act
    To direct the Secretary of the Army to reserve a certain number of 
burial plots at Arlington National Cemetery for individuals who have 
been awarded the Medal of Honor, and for other purposes.

    The Medal of Honor (MOH) is the highest award for valor in action 
against an enemy force which can be bestowed upon an individual serving 
in the Armed Services of the United States. Generally presented to its 
recipient by the President of the United States of America in the name 
of Congress. The MOH was created as a Navy version in 1861 named the 
``Medal of Valor'', and an Army version of the medal named the ``Medal 
of Honor'' was established in 1862 to give recognition to men who 
distinguished themselves ``conspicuously by gallantry and intrepidity'' 
in combat with an enemy of the United States. Since then there have 
been 3,497 recipients of the MOH.
    Arlington National Cemetery is the country's most sacred shrine 
representing an embodiment of the ultimate sacrifices that were made to 
uphold our nation's ideals and freedoms. It is the final resting place 
for more than 400,000 active duty servicemembers, veterans, and their 
families.
    The Medal of Honor Legacy Act, would hold 1,000 of the remaining 
60,000 burial plots to be exclusively assigned to MOH recipients. This 
would allow those who have received the highest military honor to 
continue to have a place at the nation's most hallowed burial place.
    The American Legion urges Congress to codify eligibility criteria 
for burial at Arlington National Cemetery and that such burial be 
restricted to our most decorated veterans. \10\
---------------------------------------------------------------------------
    \10\ American Legion Resolution No. 164 (2014): Codify Burial 
Eligibility for Arlington National Cemetery

The American Legion supports the Medal of Honor Legacy Act.
              Discussion Draft: Love Lives On Act of 2016
    To amend title 38, United States Code, to modify the definition of 
``surviving spouse'' for purposes of the laws administered by the 
Secretary of Veterans Affairs, and for other purposes.

    Dependency and Indemnity Compensation (DIC) is a tax free benefit 
that is paid monthly to eligible survivors of military servicemembers 
who died in the line of duty or eligible survivors of veterans whose 
death resulted from a service-related injury or disease. Currently, the 
law discourages widow spouses of servicemembers from remarrying. The 
Love Lives on Act of 2016 focuses on allowing the spouse to continue on 
with their lives by removing the disincentive to marriage. This draft 
bill directly applies to modifying statutory language that governs 
spousal benefits. The language in question intends to no longer 
disqualify surviving spouses in the event of remarriage. Currently, as 
the law stands, a surviving spouse is disqualified from DIC and various 
other benefits if they remarry.

The American Legion supports the Love Lives On Act of 2016.
                            Discussion Draft
    To amend title 38, United States Code, to improve the consideration 
of evidence by Board of Veterans' Appeals.

    This draft bill intends to expedite the processing of claims in the 
event of newly submitted evidence, by imposing a statutory deadline for 
the agency of original jurisdiction (Regional Office) of not more than 
180 days. There is no current time limit upon which new evidence 
submitted in an appealed case must be reviewed by the Agency of 
Original Jurisdiction (AOJ). The lack of any time limit, contributes to 
the already arduous and prolonged appeal life cycle. The establishing 
of time limits will directly address appealed claims languishing at the 
AOJ, and will expedite the processing overall. The American Legion 
urges the VA to address all claims, to include its growing inventory of 
appeals in an expeditious and accurate manner. \11\
---------------------------------------------------------------------------
    \11\ American Legion Resolution No. 28 (2015): Department of 
Veterans Affairs Appeals Process

The American Legion supports the discussion draft.
                               Conclusion
    As always, The American Legion thanks this subcommittee for the 
opportunity to explain the position of the over 2 million veteran 
members of this organization. Questions concerning this testimony can 
be directed to Warren J. Goldstein in The American Legion's Legislative 
Division at (202) 861-2700 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0c7b6b6360687f786965624c60696b65636222637e6b22">[email&#160;protected]</a>
  EXECUTIVE SUMMARY OF EDWARD G. LILLEY, TEAM LEADER FOR HEALTH POLICY
    H.R 3715: Final Farewell Act of 2015:
    The American Legion Supports

    H.R. 3936: The Veterans Engagement Team Act:
    The American Legion Supports

    H.R. 4087: Fair Treatment for Families of Veterans Act:
    The American Legion Supports

    H.R. 4757: To amend title 38, United States Code, to expand the 
eligibility for headstones, markers, and medallions furnished by the 
Secretary of Veterans Affairs for deceased individuals who were awarded 
the Medal of Honor and are buried in private cemeteries.
    The American Legion Supports

    H.R. 4758:
    To amend title 38, United States Code, to authorize the award of 
the Presidential Memorial Certificate to certain deceased members of 
the reserve components of the Armed Forces and certain deceased members 
of the Reserve Officers' Training Corps.
    The American Legion Supports
    H.R. 4759
    To amend title 38, United States Code, to authorize the Secretary 
of Veterans Affairs to pay costs relating to the transportation of 
certain deceased veterans to veterans' cemeteries owned by a State or 
tribal organization.
    The American Legion Supports

    H.R. 4782: The Veterans' Compensation Cost-of-Living Adjustment Act 
of 2016
    To increase, effective as of December 1, 2016, the rates of 
compensation for veterans with service-connected disabilities and the 
rates of dependency and indemnity compensation for the survivors of 
certain disabled veterans, and for other purposes.

    In order for The American Legion to support H.R. 4782, The American 
Legion asks for Congress to remove Section 2 of the bill and allow for 
veterans to receive the full benefits awarded due to their service.
              Discussion Draft: Medal of Honor Legacy Act
    To direct the Secretary of the Army to reserve a certain number of 
burial plots at Arlington National Cemetery for individuals who have 
been awarded the Medal of Honor, and for other purposes.
    The American Legion supports the Medal of Honor Legacy Act.
              Discussion Draft: Love Lives on Act of 2016
    To amend title 38, United States Code, to modify the definition of 
``surviving spouse'' for purposes of the laws administered by the 
Secretary of Veterans Affairs, and for other purposes.
    The American Legion supports the Love Lives On Act of 2016.
                            Discussion Draft
    To amend title 38, United States Code, to improve the consideration 
of evidence by Board of Veterans' Appeals.
    The American Legion supports the discussion draft.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
